<html>
<title> - BREATHLESS AND BETRAYED: WHAT IS MSHA DOING TO PROTECT STORING THE VALUE OF WORK: MINERS FROM THE RESURGENCE OF BLACK LUNG DISEASE?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                        BREATHLESS AND BETRAYED:
                 WHAT IS MSHA DOING TO PROTECT STORING
                   THE VALUE OF WORK: MINERS FROM THE
                   RESURGENCE OF BLACK LUNG DISEASE?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 20, 2019

                               __________

                           Serial No. 116-30

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
              
                           ______                      


               U.S. GOVERNMENT PUBLISHING OFFICE 
 36-909 PDF             WASHINGTON : 2020 
              
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

               ALMA S. ADAMS, North Carolina, Chairwoman

Mark DeSaulnier, California          Bradley Byrne, Alabama,
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Francis Rooney, Florida
Susan Wild, Pennsylvania             Mark Walker, North Carolina
Lucy McBath, Georgia                 Ben Cline, Virginia
Ilhan Omar, Minnesota                Ron Wright, Texas
Haley M. Stevens, Michigan


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 20, 2019....................................     1

Statement of Members:
    Adams, Hon. Alma S., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     4
     Byrne, Hon. Bradley, Ranking Member, Subcommittee on 
      Workforce Protections......................................     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Brown Barnes, Ms. Cindy S., Director, Education, Workforce, 
      and Income Security, Government Accountability Office......   111
        Prepared statement of....................................   113
    Cohen, Dr. Robert, MD, FCCP, Clinical Professor, 
      Environmental and Occupational Health Sciences, University 
      of Illinois School of Public Health........................     8
        Prepared statement of....................................    10
        Link: Attachments 18-19..................................    22
        Link: Attachment 33......................................    22
    Hairston, Mr. Gary, Vice President, Fayette County Black Lung 
      Association................................................    23
        Prepared statement of....................................    25
    Howard, Dr. John, MD, Director, National Institute for 
      Occupational Safety and Health.............................    86
        Prepared statement of....................................    89
    Roberts, Mr. Cecil, President, United Mine Workers of America    36
        Prepared statement of....................................    38
        Link: Attachments 1-4....................................    70
        Link: Attachment 12......................................    70
    Watzman, Mr. Bruce, Former Member, National Mining 
      Association................................................    28
        Prepared statement of....................................    30
    Zatezalo, Mr. David, Assistant Secretary of Labor for Mine 
      Safety and health, Department of Labor.....................   104
        Prepared statement of....................................   106

Additional Submissions:
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        Letter dated June 19, 2019 from United Mine Workers of 
          America (UMWA) and United Steelworkers (USW)...........   147
        Letter dated September 21, 2018..........................   152
        Letter dated April 2, 2019...............................   157
        Letter dated April 26, 2019 from the U.S. Department of 
          Labor..................................................   160
        Link: Mine Safety and Health Administration..............   198
    Questions submitted for the record by:
        Chairwoman Adams 


    Responses to questions submitted for the record by:
        Ms. Brown Barnes.........................................   216
        Dr. Cohen................................................   217
        Mr. Hairston.............................................   218
        Dr. Howard...............................................   219
        Dr. Roberts..............................................   220
        Mr. Watzman..............................................   223
        Mr. Zatezalo.............................................   224


                        BREATHLESS AND BETRAYED:

                  WHAT IS MSHA DOING TO PROTECTSTORING

                     THE VALUE OF WORK: MINERS FROM

                 THE RESURGENCE OF BLACK LUNG DISEASE?

                              ----------                              


                        Thursday, June 20, 2019

                       House of Representatives,

                   Committee on Education and Labor,

                 Subcommittee on Workforce Protections,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Alma S. Adams 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Adams, DeSaulnier, Takano, Wild, 
McBath, Stevens, Byrne, Cline, and Wright.
    Also Present: Representatives Scott, and Foxx.
    Staff Present: Tylease Alli, Chief Clerk; Jordan Barab, 
Senior Labor Policy Advisor; Ilana Brunner, General Counsel -; 
Emma Eatman, Press Assistant; Daniel Foster, Health and Labor 
Council; Eli Hovland, Staff Assistant; Stephanie Lalle, Deputy 
Communications Director; Jaria Martin, Clerk/Assistant to the 
Staff Director; Kevin McDermott, Senior Labor Policy Advisor; 
Richard Miller, Director of Labor Policy; Max Moore, Office 
Aid; Veronique Pluviose, Staff Director; Banyon Vassar, Deputy 
Director of Information Technology; Katelyn Walker, Counsel; 
Cyrus Artz, Minority Parliamentarian; Courtney Butcher, 
Minority Director of Coalitions and Member Services; Akash 
Chougule, Minority Professional Staff Member; Rob Green, 
Minority Director of Workforce Policy; Bridget Handy, Minority 
Communications Assistant; John Martin, Minority Workforce 
Policy Counsel; Sarah Martin, Minority Professional Staff 
Member; Hannah Matesic, Minority Director of Operations; Alexis 
Murray, Minority Professional Staff Member; Brandon Renz, 
Minority Staff Director; Ben Ridder, Minority Legislative 
Assistant; Heather Wadyka, Minority Operations Assistant, and 
Lauren Williams, Minority Professional Staff Member.
    Chairwoman ADAMS. The Subcommittee on Workforce Protections 
will come to order. Welcome, everyone. Good morning. I note 
that a quorum is present. The committee is meeting today to 
receive testimony for a two panel hearing entitled ``Breathless 
and Betrayed: What is MSHA doing to Protect Miners from the 
Resurgence of Black Lung Disease''.
    Mr. Griffin from Virginia will participate in today's 
hearing with the understanding that his questions will come 
only after all members of the Subcommittee on Workforce 
Protections and the full committee on both sides of the aisle 
who are present have an opportunity to question the witnesses.
    Pursuant to committee rule 7c, opening statements are 
limited to the Chair and the Ranking Member. This allows us to 
hear from our witnesses sooner and provides all members with 
adequate time to ask questions.
    I now recognize myself for the purpose of making an opening 
statement.
    Today the subcommittee is going to explore three troubling 
developments impacting our Nation's coal miners and assess 
whether the Administration is making adequate efforts to 
protect miners' health and economic well-being.
    First, we will address the resurgence of black lung 
disease, which has taken the lives of 78,000 coal miners since 
1977 and caused suffering in thousands more. Congress codified 
the first enforceable limit on coal mine dust levels in the 
1969 Coal Act and the rate of black lung disease began to 
decline in the 1970s, '80s, and '90s. More recently, the rate 
of black lung disease has come back with a vengeance. Nearly 
one in five long-tenured miners in Appalachia have been 
diagnosed with black lung disease. This is four times the rate 
anywhere else. Black lung clinics and researchers at the 
National Institute for Occupational Safety and Health, NIOSH, 
have documented a steep increase in the rate of the most severe 
form of the disease, called progressive massive fibrosis, or 
PMF.
    PMF, or complicated black lung, is caused by inhalation of 
coal and silica dust at both underground and surface coal 
mines. Miners gradually lose the ability to breathe as they 
wheeze and gasp for air. There is no cure for black lung. It is 
a progressive disease and it gets worse with time.
    We have a chart up that you can look at. Posted on the 
screen are photographs of three sets of lungs. The one on the 
left is a healthy lung, with a tan colored tissue. In the 
center, the lung with speckled black opacities, is from a coal 
miner with simple black lung disease whose breathing is 
impaired. On the right, the lung encased in solid black mass is 
from a miner with progressive massive fibrosis, or complicated 
black lung.
    For some with PMF, survival requires a lung transplant, but 
only those healthy enough to withstand the surgery are 
eligible. Even then, life expectancy does not usually exceed 5 
years. Most troubling, PMF is now afflicting miners at far 
earlier ages. Causes are being documented in miners in their 
30s and 40s.
    As the second slide shows, the rate of PMF declined sharply 
in the 1970s and kept dropping until the late 1990s. But then 
progress reversed and rates now exceed levels diagnosed in the 
1970s. Miners' increasing silica exposure has been identified 
as one of the main causes of the resurgence of PMF.
    Many of the thickest coals seams in central Appalachia have 
been mined out and the seams that remain have coal embedded in 
quartz-bearing rocks that contain silica.
    As mining machines grind through thinner coal mine seams, 
they are cutting quartz and coal together. Miners who inhale 
this dust are inhaling larger amounts of silica, which is 20 
times more toxic than coal dust alone. Let me repeat that, 
silica is 20 times more toxic than coal dust.
    And while the Mine Safety and Health Administration, or 
MSHA, implemented a more stringent coal dust rule in 2014 under 
the Obama Administration, far more can be done. Serious 
problems remain to be addressed and those will be discussed 
during this hearing today.
    This much is clear, black lung is back at epidemic levels 
and mine safety regulators and the industry have failed in 
their jobs to protect miners from this completely preventable 
occupational disease.
    Today's hearing will also address the solvency of the Black 
Lung Disability Trust Fund. When miners are disabled from black 
lung disease they can file a claim for black lung benefits with 
the Department of Labor. If a mine operator shuts down or files 
for bankruptcy, however, benefits are paid from the Black Lung 
Disability Trust Fund. That Fund is financed by a small tax 
paid by mine operators on each ton of mined coal.
    But on December 31, 2018, Congress allowed the tax rate to 
drop by 55 percent. If the previous tax rate is not reinstated 
the Government Accountability Office projects that the deficit 
in the Trust Fund will exceed $15 billion by 2050. While Trust 
Fund can borrow to pay miners' benefits and refinance its debt, 
allowing the tax rate to sunset effectively shifts the cost of 
black lung disease from the coal industry, which caused the 
problem, to the tax payers.
    And, finally, we will examine how black lung claimants 
could be harmed by the Texas lawsuit that is seeking to 
invalidate the Affordable Care Act. That suit was brought by 
Republican Attorneys General and supported by the Trump 
Administration. A lower Court opinion already struck down the 
ACA on Constitutional grounds and an appeal is now pending. The 
Texas litigation not only threatens to eliminate the ACA's 
protection for people with pre-existing conditions, Federal 
subsidies for low income people to purchase private health 
insurance and Medicaid expansion, but repeal would also 
eliminate the so called ``Byrd Amendments'' to the ACA.
    Those provisions, which are enacted with the support of the 
Black Lung Association and the United Mine Workers Union, 
restored important eligibility criteria that enabled miners and 
their families to receive compensation under the Black Lung 
Benefits Act.
    Despite the growing surge of black lung disease, the 
skyrocketing red ink in the Black Lung Disability Trust Fund, 
and the threat to miners from the attempt to repeal the ACA, we 
have heard nothing from this Administration about any actions 
that would protect and defend the threatened health and 
benefits of this Nation's ailing miners.
    I want to thank our witnesses for their testimony, 
especially those who have traveled some distance to be here.
    I also want to give a special thanks to the miners who have 
traveled from the coal fields of West Virginia.
    And now I yield to the Ranking Member, Mr. Byrne, for his 
opening statement.
    [The information follows:]

 Prepared Statement of Hon. Alma S. Adams, Chairwoman, Subcommittee on 
                         Workforce Protections

    Today, the Subcommittee is going to explore three troubling 
developments impacting our nation's coal miners and assess whether the 
Administration is making adequate efforts to protect miners' health and 
economic well- being.
    First, we will address the resurgence of black lung disease, which 
has taken the lives of 78,000 coal miners since 1977 and caused 
suffering in thousands more.
    Congress codified the first enforceable limit on coal mine dust 
levels in the 1969 Coal Act, and the rate of black lung disease began 
to decline in the 1970's, 80's and 90's. Now the rate of black lung 
disease is coming back with a vengeance. Nearly one in five long-
tenured miners in Appalachia have been diagnosed with black lung 
disease. This is four times the rate elsewhere.
    Black lung clinics and researchers at the National Institute for 
Occupational Safety and Health or NIOSH have documented a steep 
increase in the rate of the most severe form of the disease called 
Progressive Massive Fibrosis or ``PMF''.
    PMF, or complicated black lung, is caused by inhalation of coal and 
silica dust at both underground and surface coal mines. Miners 
gradually lose the ability to breathe, as they wheeze and gasp for air. 
There is no cure for black lung - It is a progressive disease and gets 
worse with time.
    Posted on the screen are photographs of three sets of lungs. On the 
left, is a healthy lung with tan colored tissue. In the center, the 
lung with speckled black opacities is from a coal miner with simple 
Black Lung disease, whose breathing is impaired. On the right, the lung 
encased in solid black mass is from a miner with progressive massive 
fibrosis or complicated black lung.
    For some with PMF, survival requires a lung transplant. But only 
those healthy enough to withstand the surgery are eligible. Even then, 
life expectancy does not usually exceed five years. Most troubling. PMF 
is now afflicting miners at far earlier ages - cases are being 
documented in miners in their 30s and 40s.
    As the second slide shows, the rate of the PMF or complicated black 
lung is higher now than the rate in the early 1970s. The rate of PMF 
declined sharply in the 1970s and kept dropping until the late 1990s, 
but then progress reversed, and rates now exceed levels diagnosed in 
the 1970s. Miners' increasing silica exposure has been identified as 
one of the main causes of the resurgence of PMF.
    Many of the thickest coal seams in central Appalachia have been 
mined out, and the seams that remain have coal embedded in quartz-
bearing rock that contains silica.
    As mining machines grind through thinner coal mine seams, they are 
cutting quartz and coal together. Miners who inhale this dust are 
inhaling large amounts of silica, which is 20 times more toxic than 
coal dust alone.
    Let me repeat that--silica is 20 times more toxic than coal dust.
    While the Mine Safety and Health Administration or MSHA implemented 
a more stringent coal dust rule in 2014 under the Obama Administration 
in 2014, far more can be done.
    Serious problems remain to be addressed and those will be discussed 
during this hearing. This much is clear: black lung is back at epidemic 
levels.
    And mine safety regulators and the industry have failed in their 
jobs to protect miners from this completely preventable occupational 
disease.
    Today's hearing will also address the solvency of the Black Lung 
Disability Trust Fund. When miners are disabled from black lung 
disease, they can file a claim for black lung benefits with the 
Department of Labor. If a mine operator shuts down or files for 
bankruptcy, however, benefits are paid from the Black Lung Disability 
Trust Fund. That Fund is financed by a small tax on each ton of mined 
coal.
    But on December 31, 2018, Congress allowed the amount mine owners 
contribute to the fund to drop by 55 percent. If the previous tax rate 
is not reinstated, the Government Accountability Office projects that 
the deficit in the Trust Fund will skyrocket to $15.5 billion by 2050.
    While the Trust Fund can borrow to pay miners' benefits and 
refinance its debt, allowing the tax rate to sunset effectively shifts 
the costs of black lung disease from the coal industry--which caused 
the problem--to the taxpayers.
    Finally, we will examine how Black Lung claimants could be harmed 
by the Texas lawsuit, brought by Republican Attorneys General and the 
Trump Administration, that is seeking to invalidate the Affordable Care 
Act. A lower Court opinion already struck down the ACA on 
constitutional grounds, and an appeal is now pending.
    The Texas litigation not only threatens to eliminate the ACA's 
protections for people with preexisting conditions, federal subsidies 
for low-income people to purchase private health insurance and Medicaid 
expansion, but repeal would also eliminate the so-called ``Byrd 
Amendments'' to the ACA that--with the support of the Black Lung 
Association and the United Mineworkers union--had restored important 
eligibility criteria that enabled miners and their families to receive 
compensation under the Black Lung Benefits Act.
    Despite the growing insolvency of the Black Lung Disability Trust 
Fund and the threat to miners from the attempt to repeal the ACA, we 
have heard nothing from this Administration about any actions that 
would protect and defend the threatened benefits of this nation's 
ailing miners.
    I want to thank our witnesses for their testimony, especially those 
who had to travel some distances to be here. I also want to give a 
special thanks to the miners who have traveled from the coal fields of 
West Virginia.
    I yield to the Ranking Member, Mr. Byrne, for his opening 
statement.
                                 ______
                                 
    Mr. BYRNE. Thank you, Madam Chairwoman, for yielding.
    As the name of this subcommittee suggests, we all share the 
common goal of keeping hardworking Americans out of harm's way 
at their jobs. We want to help ensure that all workers return 
home to their families safe and healthy.
    Workers in the mine industry have been an extremely 
important part of the American economy for decades. As someone 
who comes from a coal mining state, I have been a strong 
supporter of the men and women who provide for their families 
by working in this industry. I want us to do everything we can 
to ensure their safety is protected.
    As such, it is essential that federal programs designed to 
provide benefits to these workers are effectively managed to 
ensure that promised protections and benefits are available now 
and in the future.
    The Mine Safety and Health Administration, or MSHA, is 
responsible for protecting American mine workers by 
establishing and enforcing safety and health regulations 
governing all above ground and underground mines. It is vital 
that MSHA maintain high standards of safety while also allowing 
the industry to innovate for the benefit of mine workers and 
the American economy.
    In 2018, MSHA reported more than 330,000 Americans were 
employed by the mining industries. In that same year the agency 
reported the second lowest number ever recorded of mining 
fatalities. However, one fatality is still too many. And we 
need to continue promoting the best possible policies to ensure 
a safe and healthy workplace.
    When discussing the safety of mines, we cannot forget about 
the hazards whose effects might not be visible until years 
later, in the form of illnesses such as black lung disease. 
This illness has lasting effects that can devastate workers' 
bodies and make life more difficult and painful.
    Today, we will hear from witnesses sharing their stories 
about some of their hardships. And I want to thank you for 
being here to provide your testimony. We all share a common 
goal of preventing and eliminating black lung disease.
    I look forward to hearing from both panels of witnesses on 
how we can best accomplish this goal, and ensure those already 
diagnosed with the disease are receiving the proper benefits.
    I am encouraged by the Trump administration's work in this 
area and its latest regulatory agenda, which includes a request 
for information on respirable crystalline silica. It is 
critical for the agency to determine if the current respirable 
dust standards are providing the best and most feasible 
protection for miners.
    However, I think this hearing is missing a crucial voice in 
the examination of black lung benefits by not including the 
director of the Office of Workers' Compensation Programs here 
to testify today. As you know, this committee is responsible 
for oversight of the OWCP at the Department of Labor, which 
administers benefits for the Black Lung Disability Trust Fund 
and plays a key role for miners who are Trust Fund 
beneficiaries.
    Funding for the Trust Fund, however, is provided by an 
excise tax on coal. While that excise tax falls under the 
jurisdiction of a different House committee, the Committee on 
Ways and Means, it would have benefitted everyone in this room 
to have heard directly from the OWCP so we can have a better 
understanding of the program.
    I look forward to the testimony from all of the panelists 
at today's hearing. I believe we can all work together to 
create common sense, workable, and innovative approaches to 
ensuring miners have a safe and healthy workplace.
    With that, Madam Chairwoman, I yield back.
    [The information follows:]

Prepared Statement of Hon. Bradley Byrne, Ranking Member, Subcommittee 
                on Subcommittee on Workforce Protections

    Thank you for yielding.
    As the name of this subcommittee suggests, we all share the common 
goal of keeping hardworking Americans out of harm's way at their jobs. 
We want to help ensure that all workers return home to their families 
safe and healthy.
    Workers in the mining industry have been an extremely important 
part of the American economy for decades. As someone who comes from a 
coal mining state, I have been a strong supporter of the men and women 
who provide for their families by working in this industry. I want us 
to do everything we can to ensure their safety is protected. As such, 
it is essential that federal programs designed to provide benefits to 
these workers are effectively managed to ensure that promised 
protections and benefits are available, now and in the future.
    The Mine Safety and Health Administration (MSHA) is responsible for 
protecting American mine workers by establishing and enforcing safety 
and health regulations governing all above-ground and underground 
mines. It is vital that MSHA maintain high standards of safety, while 
also allowing the industry to innovate for the benefit of mine workers 
and the American economy.
    In 2018, MSHA reported more than 330,000 Americans were employed by 
the mining industries, and that same year the agency reported the 
second lowest number ever recorded of mining fatalities. However, one 
fatality is still too many, and we need to continue promoting the best 
possible policies to ensure a safe and healthy workplace.
    When discussing the safety of mines, we cannot forget about the 
hazards whose effects might not be visible until years later in the 
form of illnesses such as black lung disease. This illness has lasting 
effects that can devastate workers' bodies and make life more difficult 
and painful.
    Today we will hear from witnesses sharing their stories about some 
of these hardships, and I want to thank you for being here to provide 
your testimony. We all share a common goal of preventing and 
eliminating black lung disease. I look forward to hearing from both 
panels of witnesses on how we can best accomplish this goal and ensure 
those already diagnosed with the disease are receiving the proper 
benefits.
    I am encouraged by the Trump administration's work in this area and 
its latest regulatory agenda, which includes a request for information 
on respirable crystalline silica. It is critical for the agency to 
determine if the current respirable dust standards are providing the 
best and most feasible protection for miners.
    However, I think this hearing is missing a crucial voice in the 
examination of black lung benefits by not including the director of the 
Office of Workers' Compensation Program (OWCP) here to testify today. 
As you know, this Committee is responsible for oversight of OWCP at the 
Department of Labor, which administers benefits for the Black Lung 
Disability Trust Fund and plays a key role for miners who are Trust 
Fund beneficiaries. Funding for the Trust Fund, however, is provided by 
an excise tax on coal. While that excise tax falls under the 
jurisdiction of a different House Committee, the Committee on Ways and 
Means, it would have benefited everyone in this room to have heard 
directly from OWCP so we could have a better understanding of the 
program.
    I look forward to the testimony from all the panelists at today's 
hearing. I believe we can all work together to create commonsense, 
workable, and innovative approaches to ensuring miners have a safe and 
healthy workplace.
    With that, I yield back.
                                 ______
                                 
    Chairwoman ADAMS. Thank you, Mr. Byrne.
    Without objection, all the members who wish to insert 
written statements into the record may do so by submitting them 
to the committee clerk electronically in Microsoft Word format 
by 5:00 p.m. July 5th, 2019.
    I will now introduce our witnesses for panel one.
    Our first witness will be Dr. Robert Cohen. Dr. Cohen is a 
clinical professor in the Department of Environmental and 
Occupational Health Sciences at the University of Illinois 
School of Public Health. Dr. Cohen is a leading researcher on 
occupational lung diseases, with a focus in workers affected by 
mineral dust exposure.
    Our next witness is Mr. Gary Hairston, who is vice 
president of the Fayette County Black Lung Association. Mr. 
Hairston is a retired coal miner who worked in the mines for 27 
years before being forced to leave mining at age 48 due to 
black lung disease.
    Since then Mr. Hairston has been active in fighting to 
ensure that fellow miners impacted by black lung receive the 
benefits they are entitled to.
    Following Mr. Hairston will be Mr. Bruce Watzman. Mr. 
Watzman, who is testifying without affiliation, was formerly 
the senior vice president for regulatory affairs, National 
Mining Association, and their chief regulatory affairs officer 
before retiring last year.
    Our last witness on panel one will be Mr. Cecil Roberts, 
president of the United Mine Workers of America. Mr. Roberts is 
a sixth generation coal miner and West Virginian. Since 1995 he 
served five terms as president of the UMWA. He started his 
career as a coal miner and a UMWA member in 1971.
    We appreciate all of the witnesses for being here today. We 
look forward to your testimony.
    Let me remind the witnesses that we have read your written 
statements and they will appear in full in the hearing record. 
Pursuant to committee rule 7d and the committee practice, each 
of you is asked to limit your oral presentation to a 5 minute 
summary of your written statement.
    And let me remind the witnesses as well that pursuant to 
Title 18 of the U.S. Code Section 1001, it is illegal to 
knowingly and willfully falsify any statement, representation, 
written document, or material fact presented to Congress, or 
otherwise conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and members can hear you. And as you begin to speak the 
light in front of you will turn green. After 4 minutes the 
light will turn yellow to signal that you have 1 minute 
remaining. When the light turns red your 5 minutes have expired 
and we will ask you to please wrap up.
    We will let the entire panel make their presentations 
before we move to member questions. When answering a question 
please remember to once again turn your microphone on.
    I will first recognize Dr. Robert Cohen.
    Dr. Cohen, you are recognized for 5 minutes.

   TESTIMONY OF ROBERT COHEN, MD, FCCP, CLINICAL PROFESSOR, 
 ENVIRONMENTAL AND OCCUPATIONAL HEALTH SCIENCES, UNIVERSITY OF 
                ILLINOIS SCHOOL OF PUBLIC HEALTH

    Dr. COHEN. Chairwoman Adams, Ranking Member Byrne, and 
distinguished members of the subcommittee, my name is Robert 
Cohen. I am the director of the Mining Education and Research 
Center at UIC, the University of Illinois at Chicago. I am also 
professor of medicine at the Northwestern University Feinberg 
School of Medicine.
    I direct the Black Lung Center of Excellence and am the 
medical director of the National Coalition of Black Lung and 
Respiratory Disease Clinics, which has 60 sites across 15 
states serving over 13,000 miners.
    My testimony will cover three issues. First, there is a 
resurgence of severe black lung disease in the United States. 
Second, overexposure to respirable crystalline silica is an 
important contributing factor to this resurgence. And, third, 
there are short and long-term policies that MSHA, the Mine 
Safety Health Administration, should adopt to stem the 
resurgence black lung disease.
    First, evidence of resurgent of black lung disease comes 
from reports of outbreaks of hundreds of cases of progressive 
massive fibrosis, or PMF, the most severe form of the disease, 
from former miners attending clinics in Kentucky and 
southwestern Virginia.
    Our UIC research group, in collaboration with NIOSH, 
analyzed national data on former miners applying for Federal 
black lung benefits. And you can see on slide one that from 
1970 until 1996 the numbers of PMF cases among claimants 
remained below 2 percent. But after 1996, this increased 
dramatically, reaching 8.3 percent of claims. Shockingly, there 
have been a total of nearly 2,500 miners determined to have PMF 
since 1996. Those of us who care for these young miners in our 
black lung clinics see them fighting for breath. They suffer 
from the loss of ability to do simple daily tasks, like walking 
to the mailbox, playing with their children and grandchildren, 
not to mention a loss of their careers, hobbies, and ability to 
support their families. They suffer from early mortality in 
spite of our heroic attempts to treat them, including referrals 
for lung transplantation.
    Let me remind you, there is no cure for this disease. It 
confers an early death sentence.
    What is the evidence that silica plays a role? Crystalline 
silica is present in rock strata above, below, and between coal 
seams. Mining activities generate freshly fractured respirable 
silica, which is highly toxic and causes significantly more 
lung scarring than coal dust. We see evidence of silica by 
looking at the number of miners' chest x-rays with large round 
scars which have been associate with silicosis. The proportion 
of these miners with these scars has increased in central 
Appalachia, paralleling the increase of severe disease in these 
miners.
    But we go beyond chest x-ray shadows and look at the lung 
tissues of miners with PMF. We examine PMF lung tissue from 
coal miners in the NIOSH National Coal Workers Autopsy Study. 
On slide two you can see that we evaluated the type of PMF, 
whether it was a coal, mixed dust, or silicotic type, that was 
present to see how this disease has changed over time. Results 
from 376 miners showed a significant increase in the silicotic 
type of PMF from 24 percent of cases before 1990 to more than 
40 percent after that time. This indicated that miners dying 
more recently were nearly twice as likely to have silicotic 
type of disease.
    Lastly, we see evidence of the role of silica when we look 
at the mineral particles in the lungs of miners with PMF using 
the electron microscope and an x-ray probe. Data from the first 
eight modern miners and ten historical comparisons show that 
the concentration and proportion of silica particles in lung 
tissues was nearly double in the modern cases.
    What can be done? The passage of the new 2014 MSHA dust 
rule was a significant step forward, but MSHA must go further 
and sample respirable crystalline silica more frequently than 
quarterly. NIOSH has developed an in-mine silica analyzer, 
which pared with a personal quartz monitor, provides rapid 
estimates of exposure to silica, such as at the end of each 
shift. Results of monitoring could inform inspectors and 
operations on the need to change ventilation or place the mine 
on a reduced dust standard.
    MSHA should increase the frequency of monitoring for silica 
until a tamper proof personal quartz monitor becomes available. 
In addition, MSHA should adopt the current Occupational Safety 
and Health Administration's permissible exposure limit of 50 
micrograms for silica for coal miners.
    Finally, surveillance must be enhanced for miners working 
in the hot spots of central Appalachia. They should be offered 
more frequent health screening, including chest x-ray and 
spirometry testing every 2 to 3 years rather than every 5 
years.
    Thank you for the opportunity to provide this testimony and 
I will be pleased to answer any questions that you may have.
    [The statement of Dr. Cohen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Attachments 18-19: https://www.govinfo.gov/content/pkg/
CPRT-116HPRT40933/pdf/CPRT-116HPRT40933.pdf
    Attachment 33: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT40934/pdf/CPRT-116HPRT40934.pdf
    Chairwoman ADAMS. Thank you.
    We will now recognize Mr. Hairston. You are recognized for 
5 minutes, sir.

  TESTIMONY OF GARY HAIRSTON, VICE PRESIDENT, FAYETTE COUNTY 
                     BLACK LUNG ASSOCIATION

    Mr. HAIRSTON. Chairman Adams, Ranking Member Byrne, and the 
subcommittee, I would like to thank you for letting me be here 
today.
    My name is Gary Hairston. I worked in a coal mine for 27 1/
2 years. I am the vice president of Fayette County Black Lung 
Association. I just want to thank you for this opportunity to 
speak here today.
    I worked for Westmoreland Coal Company. That is where I 
started, at Westmoreland. I was 21 years old when I went there. 
I was a trainee, a redhead they called us; I worked for 
Westmoreland 8 1/2 years. I worked for Maben Energy for 6 1/2--
13 years. I worked for Maben Energy for 13 years as a--at 
Brushy Gap and Stoney Gap as a scoop operator and electrician. 
I worked 6 years with Massey Coal Company as an electrician and 
working on belts.
    At them mines, there was plenty of dust. Maben Energy was 
the worst. I tell you, the dust there, you couldn't even see--
when you are running equipment you couldn't even see where you 
are really going.
    I tell you what, it was so bad at Maben Energy that we 
didn't even hang curtains. The only time we hung curtains is 
when the--we know the inspector was coming or he was around the 
mine. And on top of that we didn't even--we had to put our dust 
samplers in a good area. We couldn't put them where the dust 
was out so we wouldn't get a bad sample.
    At Massey also there was plenty of dust where I was working 
at, but there the only time I really--the bad--the worst dust 
was when I was in the return, had to work on equipment while 
the mine was operating. They wouldn't shut down--they wouldn't 
put them out in the good air, they put them in the place where 
they can keep running the coal.
    I was 48 years old when I had to quit work. I couldn't even 
play with my grandkids. Then I had to watch my wife work go out 
of the house and started to work to help us make the ends meet 
at our house. You don't know how that feels when you're balled 
up and people have to take care of your house. And you see your 
wife go out to take care of it. I never did think at this young 
age that I wouldn't be able to take care of my family.
    But I am really here to talk about two things today for the 
Black Lung Association and the communities with black lungs. We 
are here to try to get something done about--the first thing is 
excise tax on coal intended to pay the cost of the run of the 
Black Lung program and to pay the Black Lung benefits for 
miners like me.
    When the coal company goes bankrupt it is up to the Federal 
Black Lung benefit that start taking over where the coal 
company just quits paying. When they file bankruptcy they ain't 
got to pay no more black lung to us, they--we got to be turned 
over to the Federal Government.
    After 32 years Congress allowed more than half of the 
excise tax to expire in January. So now the excise tax is only 
$.50 instead of $1.10, $.25 on surface mining, where it was 
$.50. According to the Government Accountability Office, this 
decrease will cause the Black Lung Disability Trust Fund to 
reach a debt of $15.4 million in 2050. And the coal company 
doesn't have to worry about paying because then it will be 
turned over to the tax payers. You all will be paying for what 
the company should be paying for.
    Especially at the time when more coal miners are getting 
black lung, the coal companies don't want to pay nothing. They 
are turning the excise tax over to the people.
    Our second concern was the effort of the Attorneys General 
and the Trump Administration to end the Affordable Care Act to 
the court because the Act continues to--I am sorry. I am just 
upset.
    [The statement of Mr. Hairston follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairwoman ADAMS. Mr. Hairston, we are going ask some 
questions when we finish, so thank you for your testimony, 
and--
    Mr. HAIRSTON. Thank you all for letting me speak.
    Chairwoman ADAMS.--I am just, you know, very compassionate 
about all that you have been through. So we thank you for just 
being here today and sharing your story.
    Mr. HAIRSTON. Thank you.
    Chairwoman ADAMS. Okay. All right.
    We will now hear from Mr. Watzman. You have 5 minutes,
    sir.

  TESTIMONY OF BRUCE WATZMAN, FORMER MEMBER, NATIONAL MINING 
                          ASSOCIATION

    Mr. WATZMAN. Thank you, Madam Chair, and members of the 
Subcommittee. I appreciate the opportunity to be with you today 
to share my views based on almost four decades of experience 
working on issues related to miner safety and health.
    In December 2018, I retired from the National Mining 
Association following a 37-year career. During my career, I was 
primarily responsible for representing the industry on issues 
impacting the health and safety of our nation's coal miners, 
including issues related to the federal Black Lung Program.
    During my career, I served as a member of the National 
Institute for Occupational Safety and Health, Mine Safety and 
Health Research Advisory Committee, and participated as a 
member on numerous NIOSH and MSHA partnerships formed to 
address specific safety and health issues.
    The views expressed today are solely mine. They do, 
however, reflect positions the industry has advanced to improve 
miner safety and health. I was involved in the development of 
those positions and I believe they would, if enacted, result in 
safety and health improvements beyond those we've already 
achieved.
    At the outset, let me be clear, if we had the ability to 
turn back the hands of time to prevent the suffering that has 
been reported, I can assure you that the industry would have 
already done so. Unfortunately, this cannot be done. But what 
we can and must do is to ensure that 10, 15, or 20 years from 
now there will be no more suffering, nor the need for another 
hearing because lung disease among coal miners will have been 
eradicated.
    The disease that is being reported on today results from 
exposures that occurred 10 to 20 years ago. It does not reflect 
the improvements of MSHA's new dust rule and the impacts of 
that will not be known for many years to come. What is needed 
today is to ensure that the actions MSHA has already taken, and 
those being contemplated, are based on sound science, reflect a 
complete understanding of the relationship of exposure and 
disease, provide mine operators the ability to utilize all 
tools available to protect the workforce, and, most 
importantly, are protective of miners' health.
    During my career, I was privileged to work with many 
talented individuals in industry and academia who work day-in-
and-day-out to ensure that every miner returns safely to his or 
her loved ones and who upon their retirement would be able to 
enjoy the fruits of their labors. Much success has occurred, 
injury and fatality rates are down. But what was missed, and 
everyone bears some responsibility, is that we ignored certain 
warning signs that should have caused us to broaden our 
examination of the emerging increases in black lung disease.
    I recall several meetings I attended, with people within 
NIOSH and others, where early warning signs were indicated. We 
talked about rapid progression CWP in a meeting with NIOSH. We 
sought additional information so we could further examine it 
when I was part of the industry. Unfortunately, the requests 
were denied due to HIPAA concerns.
    We talked about the clustering that has occurred in 
southern Appalachia, the area which has become characterized as 
the ``hot spot'' region because of keen interest of the cases 
of PMF were being diagnosed following a latency period far 
shorter than traditional coal workers' pneumoconiosis. It was 
following this that researchers, including those at NIOSH, 
began to identify silica as the culprit resulting in these 
cases of early onset disease.
    During this same time, we worked collaboratively with NIOSH 
and MSHA in the development of the personal continuous dust 
monitor. I will tell you that is a game-changer as it relates 
to dust sampling in the industry. But as reliable as the CPDM 
is in measuring coal dust concentrations, it unfortunately does 
not provide real time silica sampling. A renewed effort to 
develop a real-time silica monitor must be a priority.
    But there are additional things that must be done. We must 
change so that mandatory surveillance, mandatory x-ray 
surveillance is applied across the industry. We have no 
baseline understanding today of the prevalence of the disease 
because only approximately one-third of the miners participate 
in the x-ray surveillance program. Without that basic 
information employers can't work with their employees to help 
them during their working career.
    In tandem with this, the Part 90 program that MSHA 
administers must be changed. Exercising a Part 90 right under 
the law is at the discretion of miners. Studies have shown that 
only approximately 15 percent of the miners exercise this right 
to be moved to a less dusty workplace at no loss of pay. The 
law needs to be changed to accommodate that.
    Thirdly, the use of administrative controls and personal 
protection must be recognized for mining. It is recognized in 
other industries and it is long overdue for mining.
    Madam Chairwoman, I thank you for the time. I look forward 
to your questions.
    [The statement of Mr. Watzman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman ADAMS. Thank you, sir.
    We will now recognize Mr. Roberts. You have 5 minutes,
    sir.

 TESTIMONY OF CECIL ROBERTS, PRESIDENT, UNITED MINE WORKERS OF 
                            AMERICA

    Mr. ROBERTS. Thank you, Madam Chairwoman, for this 
opportunity and also Ranking Member Byrne.
    My name is Cecil Roberts. I am president of United Mine 
Workers. I have represented coal miners now for 42 years. Prior 
to that I was a coal miner for 5 1/2 years.
    In my career I have worked closely with the medical 
community, particularly Dr. Cohen, and before him, Dr. 
Rasmussen, who is revered in the coal fields of southern West 
Virginia. Unfortunately, he has passed away. I have also worked 
with the Black Lung Associations.
    And let me just comment on my friend, Mr. Hairston. And I 
want to thank him for his courage to come here today, suffering 
from pneumoconiosis and having the courage to testify before 
this committee.
    I have also worked with all of the clinics throughout the 
coal fields, and I am a board member of the Cabin Creek Clinic 
in southern West Virginia. So I am a native West Virginian, and 
I come here with a vast amount of time that I have spent on 
this issue. And I must say, in all due respect and honesty, the 
views of workers in the coal fields are not good with respect 
at how they have been treated by their government, whether it 
is at the state level or the Federal level. And I don't have to 
point very much further than how we got the first Act to 
protect coal miners in 1969. It took 159 years, by the way, 
before this government decided they ought to try to keep miners 
safe. And that was when the first law was passed in 1969. It 
would not have passed in 1969, Madam Chairwoman and members of 
this committee, if 78 miners had not lost their lives at 
Farmington in northern West Virginia in the blink of an eye. 
And all the widows and all their friends gathered around that 
mine portal, shown on television in 50 states in the United 
States of America. That would never have happened if the 
country had not witnessed this.
    Along with the passage of health and safety language, we 
got the first recognition--the first time in 1969, after 159 
years, the first time that anyone in this government said there 
was such a thing as pneumoconiosis. For years and years there 
had been a denial that there was such a thing. Miners knew they 
were sick. Miners were dying in their 40s. They thought they 
had something called miners' asthma because the medical 
community never identified it as an occupational illness and 
neither did their government.
    So there is a long tough history here. It wasn't long after 
the passage of this Act--in the '80s, there was vast fraud 
throughout this coal industry. Over 500 companies were cited 
for fraud, taking samples of miners who work for them, and over 
4,000 citations issued. That wasn't the first time this 
happened. This has happened repeatedly throughout history.
    I want to go quickly, Madam Chairwoman, because I don't 
want to just talk about this problem, I want to talk about some 
solutions here. And beginning on page 56 of my very lengthy 
testimony that we have submitted, we suggest that Congress 
needs to take necessary action, number one, to require the 
Federal Mine Safety and Health Administration to assume the 
responsibility for conducting respirable dust sampling. We can 
no longer allow coal companies to do this. That is like me 
calling up the police and say I am speeding on 79. It saves a 
lot of money, but I am not going to do that. And the coal 
industry can no longer be responsible for administering the 
protections these miners needs about what kind of dust they are 
exposed to. Remember, it is the coal companies that take these 
samples and there is a long history of fraud here.
    Number two, Congress needs to take action to require the 
Federal Mine Safety and Health Administration to promulgate an 
emergency temporary standard that recreates a permissible 
exposure limit for silica. Dr. Cohen spoke to this. We can all 
come here today and act like we need some more time, but coal 
miners don't have any time. They are dying in West Virginia and 
they are dying in Kentucky and they are dying in Virginia, and 
they don't have any more time to wait here. We need an exposure 
limit for how much silica you can be exposed to.
    Number three, Congress needs to take the necessary actions 
to require the Federal Mine Safety and Health Administration to 
promulgate an emergency temporary standard that expands the 
walk around rights to allow coal miners to be part of this 
sampling. They are not part of this, only the coal companies 
take these samples. So coal miners need to be part of this.
    Number four, Congress needs to take the actions that are 
necessary to address the problem of miner representation and 
participation, not represented by organized labor. Organized 
labor, we take care of this ourselves because of our contract, 
but non union miners don't have these protections.
    Number five, Congress must take immediate action to restore 
an increase to funding stream necessary to pay for benefits 
owed to coal miners from the Black Lung Disability Trust Fund.
    And with that, Madam Chairwoman, I would just point out 
that I have presented to this committee a lengthy presentation. 
Every committee that has ever been established in this Congress 
to deal with this, have failed to do so, so I hope today that 
we take some action to protect these miners.
    Thank you.
    [The statement of Mr. Roberts follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Attachment 1-4: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT40935/pdf/CPRT-116HPRT40935.pdf
    Attachment 12: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT40936/pdf/CPRT-116HPRT40936.pdf
    Chairwoman ADAMS. Thank you, sir, and thank all of you for 
your testimony.
    Under committee rule 8a, we will now question witnesses 
under the 5 minute rule.
    I now recognize myself for 5 minutes.
    Mr. Hairston, thank you again for being here, thank you for 
your courage.
    Can you describe to us how you discovered that you had 
black lung and PMF?
    Mr. HAIRSTON. First time I realized I was outside working 
on a piece of equipment and it started raining, and I ran up 
some steps and when I got in the bath house I couldn't breathe. 
I think I am getting ready to die. But I didn't pay that no 
attention. I just kept on working. And I was in the mine by 
myself one time, up on the section carrying an oxygen tank out 
of the mine, when I got down to where I needed to take it out 
on the tracks, I am sitting there, laying there, couldn't 
hardly breathe, trying to figure out--it seemed like I am going 
to have to wait to tell my--my wife, tell them I didn't make it 
home.
    Then I got pneumonia and when I went to the hospital they 
seen a mass on my lung. They thought it was cancer, but they 
come to found out it was black lung. After they did a biopsy on 
it they showed it was complicated black lung.
    Chairwoman ADAMS. Okay. So can you describe for us what it 
is like to have this disease and can you tell me a little bit 
about what is happening to the miners that you worked with?
    Mr. HAIRSTON. When you can't do what you want to do, when 
you want to do something with your kids and you can't--and I am 
keeping one of my grandsons now that I could just watch him 
play ball and I can't even help him. Even when I try to do 
work, I have got to take--go at a pace. And looking at all the 
other coal miners, some of them is in worse shape than I am. 
Some of them, they pretty much can't even walk 10 feet before 
they have got to stop and start to rest.
    Chairwoman ADAMS. Okay. So can you tell me, when you worked 
in the mines did the mine operators game the system by keeping 
samplers out of the dust? And what happened when MSHA 
inspectors arrived at that time?
    Mr. HAIRSTON. Yes. At the one mine that I worked at we 
didn't hang the curtain until the inspector came. And most of 
the time, even with the dust sampler, we either covered the 
hole up--when the inspector was on section we covered the hole 
up until he come around, then we pull the tape off of it so it 
wouldn't take the dust up.
    The boss told us not to get no bad sample, but I knew it 
came from the higher up than the boss.
    So we did everything we could to keep from getting a better 
sample because if we got a better sample they recommend us or 
they say if we didn't do better we had to worry about them 
trying to get rid of us.
    Chairwoman ADAMS. Thank you, sir.
    Dr. Cohen, the mining industry and MSHA have argued that 
the alarming rise in black lung and PMF that we are seeing now 
is a result of exposures 10 years ago and things may have 
changed for the better. They caution that it might be too early 
to take any action.
    How would you respond to that? And should we just wait 10 
years or do we have enough evidence from the research that you 
and others have done to act today?
    Dr. COHEN. I believe we have the obligation to act today. 
The evidence shows that the case numbers are still rising. We 
don't have any evidence that is plateauing or that is stopping. 
And I think that we would be doing a huge disservice to wait 
until we have another generation of miners with this disease to 
get data from the new rules.
    And as we talked about, the new rule really doesn't address 
silica, which is really a huge part of this problem, in the way 
that we need to.
    Chairwoman ADAMS. Thank you, sir.
    I want to now recognize the Ranking Member for the purpose 
of questioning the witnesses.
    Mr. BYRNE. Thank you, Madam Chairwoman.
    Mr. Watzman, in your testimony you discussed the fact that 
MSHA does not recognize work practices of personal protection 
equipment as tools to reduce a miner's exposure to dust. Do you 
think if MSHA were able to recognize these measures today it 
could help to mitigate health risks, such as black lung 
disease? And, if so, could you explain why?
    Mr. WATZMAN. Well, I do. I do believe that the traditional 
ways of limiting dust exposure in the mines is through air and 
water. And there is only so much air and water we can bring 
into the mines before that, in and of itself, creates 
unintended hazards.
    If we had the ability to use personal protection there are 
devices that are used in other industries that provide a 
continuous stream of clean air over the miner's breathing zone. 
Those are used on occasion, voluntarily provided by operators, 
but they are not recognized by MSHA.
    Similarly, the ability to rotate miners who are exposed to 
high concentrations of dust so that they are not exposed to the 
full shift. Again, this is a practice that is used in other 
industries, it is recognized in other industries, but the Mine 
Safety and Health Administration regulations, as they are 
written today, don't recognize those practices.
    Mr. BYRNE. You also mentioned in your testimony that MSHA's 
regulations should allow for worker rotation programs you just 
mentioned. If you don't mind, further explain how this works 
and why this could help offer additional protections to miners.
    Mr. WATZMAN. Sure, let us assume--let us talk about a miner 
who is running a continuous miner. That is a machine that is 
cutting the coal, one of the highly designated concentration 
areas in a mine. Rather than exposing that miner during a full 
shift, if it is an eight-hour shift, rotating provides the 
ability for the operator to change out two individuals during 
the shift so that during the second half of the shift the miner 
who was operating the machine during the first four hours, let 
us say, is then moved to a less dusty part of the mine to 
perform other job functions. So you are limiting the time that 
the miner is exposed to the areas where there may be high 
concentrations of dust.
    Mr. BYRNE. It sounds like the NIOSH x-ray surveillance 
program has real potential to allow us to get a better 
understanding of the prevalence and severity of black lung 
disease. We all want to see the eradication of the disease. 
Should we consider making the x-ray program mandatory? Is there 
pushback on making this mandatory?
    Mr. WATZMAN. Well, I would say it should be mandatory and 
that should be a priority. It should be done tomorrow. Today, 
only one-third of the miners participate in the x-ray 
surveillance program. We don't have a full understanding of the 
severity or the incidence of disease across the industry.
    But more importantly--more importantly is that without 
participation in that program we don't know what the miners' 
health status is during their working career.
    If we had that information and it was shared with the 
operators, the operators could work with the miners to help 
them during their working career to move them to less dusty 
parts of the mine. Right now, we have a pre-employment 
physical, there is an x-ray that is required, there is a 
follow-up x-ray that is required three or five years later, and 
then there is no requirement during the remainder of the 
miner's working career.
    This is really a health issue. It is really having more 
information available to help the miner during their working 
career.
    Mr. BYRNE. And I ask, is there pushback to this?
    Mr. WATZMAN. Well, I think there are others on the panel 
who that question would be more appropriately addressed to, but 
I can tell you that on the occasions when I was working for the 
industry and we raised this issue, there was pushback. I 
couldn't understand it because we were addressing this from 
solely a health issue, but there was pushback.
    Mr. BYRNE. Well, I will go ahead and open it up then, is 
there anybody on the panel that wants to push back against the 
suggestion Mr. Watzman made?
    Mr. HAIRSTON. I do.
    Mr. BYRNE. Okay. Yes, sir, please.
    Mr. HAIRSTON. Reasons that coal miners don't get no x-rays 
is because they scared. If they go get an x-ray when the docs 
come around, they will fire them. So they are scared to take 
that test. So they won't go take them.
    Mr. BYRNE. All right. Mr. Watzman, do you want to respond 
to that?
    Mr. WATZMAN. Well, there are protections that are already 
written in the law. You can't discriminate against a miner, you 
move a miner under Part 90 to a less dusty environment, no loss 
of pay. There are discriminatory protections in the law. If 
they are not adequate then they should be looked at, but I 
think we need to get to the point where all miners are 
participating in this program so that we can address their 
health considerations during their working career.
    Mr. BYRNE. Thank you. I appreciate your testimony.
    I yield back.
    Chairwoman ADAMS. Thank you very much.
    We will now recognize Mr. Takano from California; 5 
minutes, sir.
    Mr. TAKANO. Thank you, Chairwoman Adams, for this very 
important hearing on mine safety standards and the urgent need 
to protect miners from exposure to dangerous levels of silica.
    Research has shown that silica dust lodges in the lungs 
forever--forever. And we know this. I can barely contain my 
anger by certain people coming before this committee. It is 
much more toxic than coal dust.
    In 2016 OSHA updated their silica standards and lowered the 
permissible exposure level. And even this information, even 
with this information, the MSHA silica standards still have not 
been updated. And we know this.
    Mr. Hairston, I understand why people who are desperate for 
their jobs, who may not know what is in the law, who may be 
unprotected by labor unions, wouldn't want to have those x-rays 
done.
    Miners have reported that cutting rock was like being in a 
room full of smoke or sitting on a cloud. We can't afford to 
wait another 10 years to address this epidemic. Miners would 
not be dying at these drastic levels if there was effective 
regulation and strong Federal enforcement. I am hopeful that 
this hearing will shed light on the issue and help us come up 
with effective strategies to protect miners.
    Dr. Cohen, if MSHA were to require the use of end of shift 
monitoring equipment at all mines, what effect would that 
likely have on worker exposure, assuming the mine operators did 
not game the results?
    Dr. COHEN. I think there is no doubt that it would reduce 
exposure. It would identify tasks that are generating huge 
amounts of this toxic respirable crystalline silica. You might 
be entering a seam that has, you know, silica within there, 
cutting rock, rooftop, or cutting other thing that would have--
generate a lot of silica. I think it would help them change 
their practices and reduce exposure.
    Mr. TAKANO. How would mines respond to that information?
    Dr. COHEN. I think that they would then be able to use the 
engineering controls that are available. I think that you can 
with water and with ventilation. I think it is very possible to 
reduce dust levels. And I think that those engineering controls 
could be implemented and force change to organize in such a way 
as to reduce the exposure for these miners, or other 
alternatives could be done. I think that information would be 
very useful in a very practical time period.
    Mr. TAKANO. What changes could they make if they identified 
higher exposures to the end of the shift?
    Dr. COHEN. Then the next shifts that are working would be 
able to institute these ventilation changes or institute other 
practices that would reduce those exposures.
    Mr. TAKANO. Dr. Cohen, how certain are you that silica is 
responsible for the spike in black lung diseases and black lung 
cases, particularly progressive massive fibrosis or complicated 
black lung? How certain are you?
    Dr. COHEN. I am very certain. I think the evidence is very 
strong.
    Mr. TAKANO. And what evidence do you have that would allow 
you to conclude that silica is the right culprit?
    Dr. COHEN. Well, I think that we have evidence on three 
levels. We have the x-ray evidence that I spoke of, the pattern 
of disease that is associated with silica, we now have 
pathology case series in a larger series of pathology where we 
are looking at the tissue to see what is the particle in the 
tissue. And, finally, we are actually examining at the particle 
level what is the percentage and concentration of silica. So we 
are amassing evidence on many levels that silica is an 
important part of this problem.
    Mr. TAKANO. Thank you, Dr. Cohen.
    Mr. Hairston, thank you so much for being here and sharing 
your story. And I applaud you for your advocacy and the work 
that you do to help other miners.
    Can you speak to what changes miners and mine operators 
could make if they have identified high silica exposure at the 
end of a shift? What changes could they make?
    Mr. HAIRSTON. Not too much, but I am telling you, when you 
worked nine to ten hours a day, you don't get out of the dust 
exposure. If they cut back on the hours that you work and cut 
back on how many days you work a week, it would help, but--
almost anything, because your lungs get a chance to clear out. 
When you work now that you don't--your lungs don't never get a 
chance to clear.
    Mr. TAKANO. What do you recommend that MSHA and Congress do 
to ensure that silica exposure is reduced for miners? What are 
your thoughts about that?
    Mr. HAIRSTON. The water and the--having the air right, it 
would help a lot. That would be one of the things to try to get 
enough water and air up there to try to push the dust out. That 
would help a lot to try to keep from getting the exposure of 
it.
    Mr. TAKANO. Well, thank you, Mr. Hairston. I appreciate 
your courage in being here today and I am sorry you are 
suffering from this terrible, terrible work-related disease.
    Mr. HAIRSTON. Thank you.
    Mr. TAKANO. I appreciate your time.
    I yield back, Madam Chair.
    Chairwoman ADAMS. Thank you. We are going to yield to Mr. 
DeSalnier of California for 5 minutes.
    Ms. Stevens is recognized.
    Mr. SCOTT. Are you going to recognize the Ranking Member?
    Chairwoman ADAMS. She is not ready for that yet.
    Ms. STEVENS. Thank you, Madam Chair. I am delighted to be 
at this hearing in this moment.
    I am from Michigan and I ran for the seat because we wanted 
to stand up for the hard working men and women of this country 
and our labor movement. I asked to get on this committee for 
the very reason of what we are discussing here today. This 
subcommittee around workforce protections and the inalienable 
rights that include not dying on the job.
    After declining since the 1970s, black lung disease among 
today's coal miners is back with a vengeance. It is affecting 
more than one in five miners in central Appalachia and these 
rates are just clearly higher than they were in the '70s. This 
is alarming and should immediately trigger the swift 
involvement of our Federal Government to allocate the resources 
and bring all stakeholders to the table.
    Dr. Cohen, I wanted to ask you what some of the 
improvements that Congress can do to build upon the Obama 
Administration's respirable dust rule might be. And, if you 
don't mind, maybe kind of talking a little bit about that with 
the rule and why it hasn't been implemented and what we can do. 
We would appreciate it.
    Dr. COHEN. I think that the silica standard for MSHA was 
sort of on the regulatory agenda towards the end of that 
Administration, but time ran out and they were not able to get 
that enacted. But I think we have an incredibly well researched 
and well documented OSHA standard for silica. Silica dust is 
the same whether it is a construction worker digging a tunnel 
versus a miner digging a tunnel. It is the same toxic material. 
There is no difference, depending on which regulatory agency is 
covering that worker. So it makes no sense whatsoever that we 
have one standard that is part of a complex formula that 
doesn't seem to be effective, and another standard that is very 
straightforward, 50 micrograms per meter cubed, action levels 
of 25 micrograms per meter cubed. Let us take care of this. And 
it was a very long 40 year process to get that standard. We 
should just adopt it for miners.
    Ms. STEVENS. Thank you.
    Mr. Roberts, thank you for your leadership. The mine 
workers--you are an incredible leader and we are glad that you 
are here.
    What are some of the missed opportunities happening now 
that are holding us back from preventing more cases of black 
lung from affecting the young workers. I think Takano kind of 
touched on this, but if you could just dive in a little bit 
deeper for us, particularly from your vantage, we would 
appreciate that.
    Mr. ROBERTS. I think it would be helpful for the committee 
to understand that when you have PMF, the most severe form of 
black lung, the cure for that is a lung transplant. That is it. 
It cost $1 million each. And you live about 3 years. So that is 
the cure. So we are now debating whether we should do something 
about this, right. So--and I don't mean to be overly critical, 
but sometimes I can't help myself after being here so many 
times over the years.
    First of all, we have got to place in the hands of coal 
miners more power. They have absolutely no idea at the time 
they are being tested for exposure to dust, how much they are 
in. The new system helps with that. If you had a system that we 
just discussed about end of shift silica readings, there is no 
guarantee that they will know what that reading is. And a third 
thing about that is there is no standard. So until we have a 
standard that these companies have to meet, we are doing 
absolutely nothing by having the end of shift review of this 
because coal companies will make the decisions about whether or 
not they want to do something about the amount of silica that 
is being presented to miners who are working in the mines.
    So we have to have more power to the miners, more rights to 
the miners, and we have got to take the system out of the hands 
of the people who operate the mines. And I am not here 
suggesting that all coal companies are bad. I am on record here 
in Congress that most coal companies want to do the right 
thing. But as I just pointed out, originally there are a lot of 
coal companies that do not.
    Ms. STEVENS. Well, and there are certainly a lot of issues 
where it is easy to point the finger, but that doesn't 
necessarily solve the problem.
    Mr. ROBERTS. That is correct.
    Ms. STEVENS. And so what you are talking about with 
standards, as someone who also sits on the House science 
committee with oversight of the National Institute of Standards 
and Technologies, we know very well the importance of what 
standards will bring to this, the justice and, frankly, the 
health outcomes.
    I do a lot of hearings. I can't think of a more important 
hearing around the general health outcomes and the protections 
of our workers.
    So you mentioned you have been here a lot, that you have 
been having this conversation on repeat. I want to let you know 
it is a new day in this Congress with the leadership.
    Chairwoman ADAMS. The gentlelady is out of time.
    Ms. STEVENS. Thank you, Madam Chair.
    Chairwoman ADAMS. Thank you.
    We will now recognize Dr. Foxx from North Carolina, the 
Ranking Member of Ed and Labor.
    Mrs. FOXX. Thank you, Dr. Adams. And I want to thank our 
panel members for being here today.
    Mr. Watzman, mining is a vital part of the American economy 
and mine workers deserve a workplace that ensures their basic 
health and safety. One factor that is so difficult with black 
lung disease is the latency period between a worker being 
exposed to dust and the onset of the disease. In your view, are 
we able to know if the recent MSHA standard, the 2014 
Respirable Coal Mine Dust Rule, is providing workers with the 
needed protection? And, based on information currently 
available, what actions, if any, should we be considering 
today?
    Mr. WATZMAN. I don't think we have enough information yet. 
The Rule came into place in 2014, we have fully implemented 
across the industry the continuous personal dust monitor. That 
information is provided to the Mine Safety and Health 
Administration electronically. It is tamper-proof protected 
when it is shared. And based upon the information that MSHA has 
reported, dust levels across the industry are down 
dramatically. That is a step in the right direction. But I 
think we need to learn more over time in terms of whether this 
is effective or not.
    You know, it is unfortunate because of the latency period 
that it takes so long to understand the effectiveness. And when 
the National Academy of Sciences recently issued their report 
on respirable dust, they pointed to that, that because of the 
latency period--and it is not my words, it was their 
conclusions--because of the latency period, we really don't 
know whether or not dust standards are effective in a short 
enough period of time.
    So it is a problem, but I am not sure that there is much we 
can do to overcome that because of the 10- to 20- year latency 
period before disease presents itself.
    Mrs. FOXX. Thank you.
    Mr. Watzman, you have been actively engaged in the mining 
industry and worked with MSHA for over 30 years. How would you 
characterize the way the agency identifies priorities and 
addresses concerns? The title of today's hearing implies the 
agency has been willfully ignoring its duties. Based on your 
experience, is this the case?
    Mr. WATZMAN. I don't think that is a fair characterization, 
quite honestly. I think the agency does as good a job as it can 
working with its stakeholders to identify priorities. They 
inherited a dust rule from the prior administration. They are 
implementing that dust rule, enforcing that dust rule from the 
prior administration. They have not turned their backs on that 
issue, they have not revised the dust rule, they have not 
proposed revisions, as far as I know right now, to those 
underlying standards. So I think that they do a good job. Could 
they do a better job? I am sure we could all point to 
organizations who could do a better job working with their 
stakeholders, but I don't think it is a fair characterization 
to say that they have turned their back on the miners.
    Mrs. FOXX. Thank you again.
    Mr. Watzman, we all want to see the elimination of advanced 
lung disease related to mining activities while preserving jobs 
that are vital to these workers and the communities. It is 
clear the mining industry has continued to evolve and improve 
practices over the years as new information and technologies 
become available.
    How can we continue to encourage and facilitate the 
creation of additional new technology moving forward?
    Mr. WATZMAN. Well, there is a barrier that needs to be 
overcome. There are technology providers who provide technology 
outside the U.S. but aren't bringing it into the U.S. This is 
an issue that the Assistant Secretary talked about early in his 
tenure. We need to come up with better procedures to get new 
technologies introduced, especially in the underground coal 
environment. MSHA has a very rigorous, time consuming, and 
expensive approval and certification process. We need to 
recognize where technology is approved by international 
standard setting organizations, that approval should be 
adequate for introduction into the U.S., and I hope that the 
agency is moving in that direction.
    Mrs. FOXX. Thank you, Mr. Watzman. And, again, I want to 
thank the panelists for being here today.
    I yield back, Madam Chairwoman.
    Chairwoman ADAMS. Thank you very much.
    I will yield now to the gentlelady from Pennsylvania, Miss 
Wild.
    Ms. WILD. Thank you, Madam Chair.
    Mr. Hairston, good morning. I am sorry that I wasn't here 
for the oral testimony portion, but I have read your written 
testimony and I appreciate it.
    In a letter from November of 2018 Hal Quinn, the National 
Mining Association CEO, stated that the ``industry is committed 
to ensuring that all miners who suffer from black lung receive 
the benefits they deserve''. And in your experience, I would 
like to ask you, which includes working as a coal miner for 27 
years before you were diagnosed and as vice president of the 
Fayette County Black Lung Association, would you agree or 
disagree with Mr. Quinn's statement that the industry is 
committed to ensuring that all miners who suffer from black 
lung receive the benefits they deserve?
    Mr. HAIRSTON. I disagree.
    Ms. WILD. So that hasn't been your experience?
    Mr. HAIRSTON. No.
    Ms. WILD. Can you tell us a little bit about your 
experience in terms of the benefits that you believe you should 
have received that you haven't?
    Mr. HAIRSTON. When I filed for mine, the company waited 
until the last minute to even protest it. Then I think we 
fought mine for 2 years and Washington and Lee University 
wanted to help me get mine. And most coal miners, most of them 
try 10, 15 years before the ever get it. They always find some 
kind of way--at one time they were hiding the x-rays, knowing 
that they had it, they get these expensive hospitals to say 
that you ain't got it. So it ain't helping us.
    Ms. WILD. Let me stop you stop you there for a second 
because I want to go to Dr. Cohen and ask Dr. Cohen about--
well, before I get to Dr. Cohen, let me go to Mr. Watzman.
    In June of 2018 there was a Reuter's article on the 
resurgence of black lung disease and the coal industry's 
opposition to maintaining the tax rate that supports the Black 
Lung Disability Trust Fund, and you were quoted as saying more 
often than not we are being called upon to provide compensation 
for previous or current smokers.
    Mr. Watzman, can you explain that comment to Mr. Hairston 
or any of his work colleagues that jeopardize their health for 
the benefit of the coal industry? And specifically, can you 
provide us with any credible medical or scientific study that 
backs up your claim that smoking is the root cause of coal 
miners becoming disabled and therefore qualifying for black 
lung benefits?
    Mr. WATZMAN. I don't have it with me, but I will provide a 
study for the record that I am familiar with for your benefit.
    Ms. WILD. Who authored that study, Mr. Watzman?
    Mr. WATZMAN. I can't recall off the top of my head.
    Ms. WILD. And it is your position that study supports the 
claim that smoking is the root cause?
    Mr. WATZMAN. I don't--I didn't say that it was the root 
cause.
    Ms. WILD. Well, that was my question. So you don't have any 
evidence that it--smoking is the root cause of coal miners 
becoming disabled.
    Mr. WATZMAN. No, I didn't--no, I don't.
    Ms. WILD. Okay, thank you.
    In addition, in June of last year the National Mining 
Association distributed a fact sheet to congressional offices 
that asserted that there was a ``decline in medical black lung 
disease'' and that the reduced black lung excise tax rate was 
more than sufficient to provide monthly disability payments.
    First of all, question, did you review and approve that 
fact sheet before it was distributed?
    Mr. WATZMAN. I didn't--I was not solely responsible for it, 
but I would have been involved in its development at that time.
    Ms. WILD. Okay.
    Dr. Cohen, I would like to turn to you. Do you care to 
comment on that statement that there has been--according to the 
National Mining Association's fact sheet to congressional 
offices, that there has been a decline in medical black lung 
disease?
    Dr. COHEN. Yeah, I think that is wrong. And I think that--I 
think
    Ms. WILD. And can you tell us what your evidence reveals?
    Dr. COHEN. We have evidence from active working coal miners 
that is part of the NIOSH Coal Workers Health Surveillance 
Program that shows that the rate of disease on chest x-rays is 
increasing, we have evidence from former miners that are 
applying for black lung, including outbreaks from clinics, and 
then a review of national data from the Office of Workers' 
Compensation Programs, Black Lung Benefits Program that clearly 
shows that the rates of severe disease and compensated workers 
is increasing.
    Ms. WILD. And can you give us any kind--can you quantify 
that at all?
    Dr. COHEN. Well, I think that one of the most shocking 
numbers that from 1996 to the present, 2,500 miners have been 
compensated for disabling progressive massive fibrosis, the 
most severe form of the disease. And that curve I showed a bit 
earlier shows that it is just a very steep increase as opposed 
to what we would really hope for, is that under modern dust 
controls that we would be decreasing and eliminating this 
disease.
    Ms. WILD. Mr. Hairston, I hope that our committee will be 
able to do something to help you all.
    With that I yield back.
    Chairwoman ADAMS. Thank you very much.
    We will now yield to the gentleman from Texas, Mr. Wright. 
You are recognized for 5 minutes.
    Mr. WRIGHT. Thank you, Madam Chairwoman.
    First, Mr. Hairston, I was here earlier for your opening 
testimony and it was very compelling. And no one can know fully 
what you have been through unless they have had that disease, 
so God bless you and your family. I know it has been tough.
    Mr. Watzman, I wanted to ask you, because this hearing kind 
of underscores the difficulty that Congress has in implementing 
any kind of new regulation or anything like that when you have 
this time lapse that has been discussed here. If we look at car 
accidents over the last 30 years, it is going to include an 
awful lot of accidents before cars had air bags, for example.
    And, so, my first question to you is how do we get a handle 
on this, realizing that there has been an awful lot of 
improvements made in the last 25-30 years, and yet we don't 
have the data to know exactly what the effect of that is going 
to be until we are further down the road? Is there any data 
that is more recent that can be applied to this?
    Mr. WATZMAN. Well, we have data that becomes available as 
the NIOSH x-ray surveillance program--as miners participate in 
the NIOSH x-ray surveillance program and that data becomes 
available. But, again, that is only a fraction of the workforce 
and that is the problem, that we are looking at 30-35 percent 
of the workforce.
    And human nature, at least as it relates to me, tells me 
that if I am not feeling well I go see my physician. But if I 
am feeling well, I have no need to go to the physician. Yet, 
there may be an underlying disorder that I am not aware of. And 
that is why we feel so passionately as an industry or the 
industry feels so passionately, and I still feel that I am a 
part of it, that the x-ray surveillance program should be made 
mandatory so that there is a better understanding of the 
breadth of disease across the entirety of the industry and so 
that operators can work with their employees to take action to 
protect them during the remainder of their working career.
    Mr. WRIGHT. And you hit on another point when you mentioned 
percentages because while percentages may be up, the total 
number of miners is down. And so if you are going to do an 
accurate comparison with the past, it needs to be an apple and 
apple comparison, not an apple and orange comparison.
    Mr. WATZMAN. That is correct.
    Mr. WRIGHT. Right. So I just want to throw that out there 
that if we are going to be making these comparisons over time, 
then they need to be relevant comparisons. You don't apply--you 
know, you can talk all day long about how the percentage is up, 
but if the total number is different, then it is going to skew 
the conclusion. Isn't that correct?
    Mr. WATZMAN. That is correct.
    Mr. WRIGHT. All right. Thank you very much.
    And I yield back.
    Chairwoman ADAMS. Thank you very much.
    I will now yield to the Chair of Education and Labor, 
Chairman Scott from Virginia.
    Mr. SCOTT. Thank you, Madam Chair.
    President Roberts, you are aware of the reporting by Howard 
Berkes of National Public Radio about the epidemic of 
progressive massive fibrosis that really brings us here today. 
And your testimony calls for an emergency temporary standard 
for a more protective silica standard. Does your testimony call 
for the same standard that NIOSH has been recommending for 40 
years?
    Mr. ROBERTS. I think the standard that was promulgated by 
OSHA would be the standard that I would encourage this 
committee to take into consideration as they deliberate this 
issue.
    If I could just elaborate slightly, you do not really need 
to wait 10 years to determine when a miner has been in the 
mines 5 years and he has PMF that you might want to wait 
another 10 years, because that miner is going to be gone.
    Mr. SCOTT. The Mine Safety and Health Administration, MSHA, 
has the authority to issue an emergency standard when it 
determines that miners are exposed to a grave danger from 
exposure to substances or agents determined to be toxic or 
physically harmful. Are miners exposed today to that grave 
danger?
    Mr. ROBERTS. Oh, absolutely, they are exposed to grave 
danger as we are sitting here today.
    Mr. SCOTT. Thank you.
    Dr. Cohen, we have heard reference to the 2014 improvement. 
What improvements on the silica standard were made by that 2014 
standard for mine workers?
    Dr. COHEN. There was no specific improvement in the silica 
standard in the 2014 regulations. The total dust was lowered 
from 2 milligrams to 1.5.
    Mr. SCOTT. Well, I thought you said that silica was causing 
the problem of progressive massive fibrosis?
    Dr. COHEN. It is.
    Mr. SCOTT. And so the 2014 change didn't have anything to 
do with silica, is that right?
    Dr. COHEN. I don't believe that it addressed it adequately, 
no.
    Mr. SCOTT. Now, it is my understanding, Dr. Cohen, that 
NIOSH has been recommending a better standard, the same 
standard that applies now with OSHA, but not mine workers. Is 
that right?
    Dr. COHEN. That is my understanding, yes.
    Mr. SCOTT. Okay. What has happened for 40 years?
    Dr. COHEN. I think that it was a long process to get the 
new OSHA standard through and that finally was passed. And I 
think that it is just absolutely nonsensical that doesn't apply 
to miners as well. They are workers exposed to the same dust, 
so I think that has to be done and should be done. And the data 
is there for that.
    Mr. SCOTT. Mr. Hairston, you talked about the reluctance to 
get x-rays. Why are people afraid to get x-rays?
    Mr. HAIRSTON. They scared of getting fired.
    Mr. SCOTT. And why would they be fired in light of the fact 
that they have rights to be transferred?
    Mr. HAIRSTON. I know a few guys right now, they got fired 
because they wouldn't work in dust. They fighting right now to 
try and get their jobs back.
    Mr. SCOTT. And they get--they are reluctant to tell the 
employer because the employer--the last employer is stuck with 
the Workers Compensation, is that right?
    Mr. HAIRSTON. Yes.
    Mr. SCOTT. And so if they can get fired before they get 
sick, when they might be sick, maybe they will go somewhere 
else and somebody else will be responsible. Is that the danger?
    Mr. HAIRSTON. Yes, sir. Because if you say something about 
it, the coal company will fire you before the government can do 
anything about it. You still got to wait for the government to 
do what they got to do to get your job back. Then you got to 
hire a lawyer. How many coal miners can get lawyers to fight 
their cases?
    Mr. SCOTT. Thank you.
    Now, President Roberts, you indicated that protections that 
union members have that non union members don't have in terms 
of worker protections in the contract. Can you explain what you 
meant?
    Mr. ROBERTS. Yes. Although the law says certain things, to 
expect that a coal miner that doesn't have representation at 
the mine is going to exercise those rights knowing full well 
that at some point in time something could happen to him and he 
would be discharged, they do not exercise that right, they 
being the miners in non union mines. Our contract, as well as 
the law, says we can withdraw ourselves from any situation that 
we feel dangerous to our health or any situation that we feel 
that could injure us. And we exercise--we being our members--
that on a frequent basis.
    Mr. SCOTT. Thank you, Madam Chair.
    I yield back.
    Chairwoman ADAMS. Thank you, Mr. Scott.
    I will now recognize Mr. Griffith from Virginia for 5 
minutes, sir.
    Mr. GRIFFITH. Thank you very much. Let me thank you, Madam 
Chair, and Ranking Member Byrne, and my friend, also from 
Virginia, the Chairman of the full committee, Mr. Scott, for 
inviting me to be a participant in this today. This is very 
important to the constituents in my district. I represent the 
part of the hot spot that was mentioned earlier, southwestern 
Virginia, and it is important.
    Mr. Hairston, I believe I heard you say that you got help 
from Washington and Lee University School of Law. Is that 
correct?
    Mr. HAIRSTON. Yes, sir.
    Mr. GRIFFITH. And as a proud alumnus of that institution, I 
am glad to know they are doing some good stuff. It is a good 
school and they do a lot of good things.
    Mr. HAIRSTON. Yes, it. They do.
    Mr. GRIFFITH. And I have heard the same thing you said in 
your answers to Representative Scott, to Chairman Scott were 
the same as I have heard in the district, and that is people 
are afraid to go get the x-rays for fear that they will be some 
other reason that they lose their job.
    So I am intrigued because I want to find answers to this 
problem. I mean I am a big supporter of coal mining, but I want 
to make sure that we take care of our miners.
    Mr. Watzman, you indicated that we should have a universal 
x-ray system. Do you think that might solve this fear problem? 
I mean if everybody has to do it--and I will tell you, it is 
not an alien concept, because my mother was a school teacher, 
and I forget how many years it was, but every 3 or 5 years she 
had to go and get a chest x-ray to make sure she didn't have 
tuberculosis, because there was at one time a huge tuberculosis 
problem. So what seems to be the resistance to having everybody 
get an x-ray every so many years? And then that way you have 
got a better chance of being able to help people quicker. And 
it is not that somebody like Mr. Hairston be asking for the x-
ray, everybody had to get it.
    And, Mr. Robertson, I want your comment on that too, but 
Mr. Watzman?
    Mr. WATZMAN. Well, that is what we believe should be the 
case, that every miner participates in a mandatory x-ray 
surveillance program. Will that address the concerns of 
discrimination and getting fired, I don't know the answer to 
that. What I do know is that will provide information to the 
miner and to the employer so that they can work with them 
during the remainder of their working career to protect their 
health as best as possible.
    Mr. GRIFFITH. And I appreciate that.
    Mr. Roberts, your thoughts? Because I don't have an opinion 
per se, I am just trying to learn here today.
    Mr. ROBERTS. Thank you.
    My view of this, and I believe that this will be the 
correct view, we do not necessarily have a problem with miners 
getting x-rays every 5, 6--whatever it might be years. Our 
problem is that we do not think that coal companies should be 
privy to that information. We have a HIPAA law that says that 
no one can have my medical records and we are going to say to 
the coal companies, who have got a less than stellar record in 
some instances here, here you go, here is the x-rays for the 
people who are working--that is going that is going to be 
something that miners will resist to no end. So I think we need 
to protect their privacy here.
    Mr. GRIFFITH. And I am going to look forward to thinking 
about that and trying to figure it out, because I also know 
that sometimes a miner, even if he has a problem, won't 
exercise his rights for the same fears that he isn't getting 
the x-ray for now.
    The other thing I thought was intriguing today, Mr. 
Watzman, was this idea of the personal--let me see if I can get 
it right here--the personal protective devices. I mean I have 
got research from Virginia Tech, and some researchers there 
have been working on it, they agree with the silica issue, but 
they think there may be other factors as well. And every 
mountain is a little bit different and there are different 
minerals in every mine, and sometimes even the mines that 
aren't in Appalachia have high concentrations of minerals. But 
if we had a personal protection device, it seems to me if that 
is not too heavy or burdensome, that would eliminate a lot of 
these concerns about whether it is coal, which we now think it 
is not as bad as the silica--and I think that is right, based 
on the science, and yet there is this research ongoing about 
other things. You have said that is a good idea. You think the 
industry would accept that?
    Mr. WATZMAN. They are--in selective instances they are 
already being used voluntarily in the industry. These are 
devices--
    Mr. GRIFFITH. Okay. And your answer is yes? Because I am 
running out of time.
    Mr. WATZMAN. The answer is yes.
    Mr. GRIFFITH. Mr. Roberts, what do you think? Do you think 
the miner would be willing to do that? Because to me that seems 
like a really practical solution.
    Mr. ROBERTS. It really depends on your job, Congressman. 
And let me give you an example, if you don't mind.
    Mr. GRIFFITH. Yes, sir.
    Mr. ROBERTS. I ran a shuttle car in about 40 inches of 
coal, and you could touch the top as you ran up the--went up to 
the miner to get unloaded. When you came back you couldn't see 
anything on the other side because the coal was dragging on the 
top. You cannot put a shuttle car operator in an air stream 
helmet and expect him to operate that shuttle car safety 
without running over top of somebody. If you are in other 
occupations in the mine, you cannot wear an air stream helmet. 
It is impossible. There are some places you can, but in a lot 
of places you can't.
    Mr. GRIFFITH. Well, maybe we need research to figure out 
how to make those devices a little bit less intrusive.
    I will also tell you that one of the things that might tech 
folks said we might want to take a look at is--Virginia Tech 
folks said we might want to take a look at is the mine 
processing, getting the mine ready. Because apparently the dust 
rules don't apply until you are actually mining the product, 
and yet you are digging through a lot of rock to get that seam 
ready to be mined.
    I am out of time, so I yield back.
    Chairwoman ADAMS. Thank you all very much for your 
testimony.
    And I want to thank all of the witnesses on panel one for 
your participation today. Certainly I learned a lot myself and 
certainly have a lot of compassion, Mr. Hairston, for what you 
have been through. And hopefully we will have an opportunity 
and will make a way to really provide some support.
    Members of the Committee, what we have heard is very 
valuable. The committee may have some additional questions for 
you, and we ask the witnesses to please respond to the 
questions in writing. The hearing will be open for 14 days in 
order to receive the responses. I remind my colleagues that 
pursuant to committee practice, witness questions for the 
hearing record must be submitted to the majority committee 
staff or committee clerk within 7 days. The questions submitted 
must address the subject matter of the hearing.
    We are going to seat the second panel. Well, let us take 5 
minutes to recess to seat the second panel.
    All right, thank you all very much.
    [Recess]
    Chairwoman ADAMS. Our first witness on the second panel 
will be Dr. John Howard. Dr. Howard is the Director of the 
National Institute for Occupational Safety and Health. He has 
held that post since 2009. Dr. Howard previously served as 
director of OSHA from 2002 to 2008. Prior to coming to OSHA Dr. 
Howard was chief of the Division of Occupation Safety and 
Health of the California Department of Industrial Relations, 
Labor, and Workforce Development.
    The next witness will be Dr.--
    Mr. ZATEZALO. Zatezalo.
    Chairwoman ADAMS.--Zatezalo, assistant secretary for the 
Mine Safety and Health Administration. Prior to leading MSHA, 
Dr. Zatezalo was CEO of Rhino Resources, a Kentucky coal mine 
operator. He also served as chair of the Kentucky and Ohio Coal 
Associations. He is a native West Virginian and he started his 
career as a coal miner.
    The final witness is Miss Cindy Brown Barnes, Director of 
Education Workforce and Income Security for the Government 
Accountability Office. Miss Brown Barnes leads the GOA team 
that audited the Department of Labor's management of the Black 
Lung Disability Trust Fund. She has more than 30 years of 
experience performing audits of Federal agencies.
    Welcome to all of our witnesses. We appreciate all of the 
witnesses for being here today and look forward to your 
testimony.
    Let me remind the witnesses that we have read your written 
statements and they will appear in full in the hearing record.
    Mr. BYRNE. Madam Chairwoman?
    Chairwoman ADAMS. Yes?
    Mr. BYRNE. I have a parliamentary inquiry.
    Chairwoman ADAMS. Yes, sir, state your parliamentary 
inquiry.
    Mr. BYRNE. I appreciate Ms. Barnes from the GAO being here 
today, but it is my understanding that she will speak on issues 
related to the funding of the Black Lung Disability Trust Fund, 
and those issues are not within the jurisdiction of the 
committee. Do we have a responsibility to limit our hearings to 
subjects we can address in this committee, allowing adequate 
time for the other issues?
    Chairwoman ADAMS. GOA was invited to testify because the 
Black Lung Benefits Act falls squarely in the jurisdiction of 
this committee and this subcommittee, including the 
administration of the program by the Department of Labor. This 
subcommittee can conduct oversight of the tax rate and the 
Trust Fund solvency even if we cannot legislate on the tax as 
that falls in Ways and Means. Indeed, Chairman Scott and Ways 
and Means Chairman Neal are co-requestors of the work being 
performed by the GAO on the Trust Fund solvency.
    I want to remind everyone that the DOL secretary is one of 
the three trustees of the Black Lung Benefits Disability Trust 
Fund and GAO's testimony is addressing not only the tax but the 
maladministration of self-insurance, the Office of Workers' 
Compensation programs.
    As the minority is aware, the GAO work is still underway, 
but when it is complete it may be timely to hold another 
hearing and ask OWCP to testify, however, GAO's work is not 
expected to be completed until the fall. And I would add that 
if the minority felt it was important to have testimony here 
today, the minority could have invited them to testify or made 
a request to the majority to consider an additional joint 
witness. However, our staff did not receive a communication in 
reference to that.
    Mr. BYRNE. Thank you for your response.
    Chairwoman ADAMS. All right. Thank you.
    Our final witness--I think I just introduced her. Okay, all 
right.
    Thank you very much. We appreciate all the witnesses for 
being here today and look forward to your testimony.
    I do want to remind the witnesses that we have read your 
written statements and they will appear in full in the hearing 
record. Pursuant to committee rule 7d and committee practice, 
each of you is asked to limit your oral presentation to a 5 
minute summary of your written statement.
    I want to remind the witnesses that pursuant to Title 18 of 
the U.S. Code Section 1001, it is illegal to knowingly and 
willfully falsify any statement, representation, writing, 
document, or material fact presented to Congress, or otherwise 
conceal or cover up a material fact.
    Before you begin your testimony, please remember to push 
the button on the microphone in front of you so that it will 
turn on and the members can hear you. And as you begin to speak 
the light in front of you will turn green. After 4 minutes the 
light will turn yellow to signal that you have 1 minute 
remaining. When the light turns red your 5 minutes have expired 
and we ask that you please wrap up.
    We will let the entire panel make their presentations 
before we move to member questions. When answering a question 
please remember once again to turn your microphone on.
    I will first recognize Dr. John Howard. Dr. Howard, you are 
recognized for 5 minutes, sir.

TESTIMONY OF JOHN HOWARD, MD, DIRECTOR, NATIONAL INSTITUTE FOR 
                 OCCUPATIONAL SAFETY AND HEALTH

    Dr. HOWARD. Good morning, Chairwoman Adams and Ranking 
Member Byrne, and distinguished members of the subcommittee. My 
name is John Howard and I am the Director of the National 
Institute for Occupational Safety and Health, or NIOSH, which 
is part of the Centers for Disease Control and Prevention in 
the U.S. Department of Health and Human Services.
    I am here today to provide two brief updates. First, I will 
provide an update on the science, showing how inhaling 
respirable crystalline silica contributes to U.S. coal miners 
developing a lung disease called pneumoconiosis. And, second, I 
will describe NIOSH's efforts to improve the technology for 
assessing coal miners' exposure to quartz, the form of 
crystalline silica found in coal mine dust.
    Quartz is the most common type of crystalline silica. 
During coal mining activities rock that contains quartz can be 
disturbed, generating dust that contains respirable particles 
of crystalline silica which miners then can inhale.
    We know that when miners in certain jobs, such as roof 
bolting, workers at the mine face and surface miners engage in 
drilling through layers of rock covering the coal seam can 
develop a lung disease called pneumoconiosis as a result of 
their inhalation. Specifically, miners can develop a type of 
pneumoconiosis called silicosis. Miners can also develop coal 
workers' pneumoconiosis, or black lung disease, mixed with 
silicosis.
    Science tells us that quartz plays a contributing role in 
the current outbreak of pneumoconiosis in coal miners, 
particularly in the central Appalachian region, which includes 
eastern Kentucky, western Virginia, and in West Virginia. In 
these areas approximately 20 percent of active underground coal 
miners with 25 or more years of mining tenure have evidence of 
pneumoconiosis.
    We know this from several lines of evidence, including, 
one, radiographic exams performed during coal workers' health 
surveillance surveys, two, Mine Safety and Health 
Administration inspection data, three, interviews of coal 
miners with progressive massive fibrosis, and, four, analysis 
of coal workers' lung tissue.
    Timely monitoring of quartz would provide better protection 
for miners. As a first step, NIOSH is researching technologies 
to advice the science of assessing quartz exposures in the 
field, specifically developing and testing a prototype for a 
field based rapid quartz monitor, which I have with me today, a 
type of self assessment tool also known as an end of shift 
silica monitor. The rapid quartz monitoring prototype is based 
on three components, a sampler, an analyzer, and a quartz 
concentration software calculator.
    Concurrently, NIOSH is funding through its external 
contracts program the development of a stand-alone near real-
time continuous quartz monitor for compliance sampling. 
Development and certification of the near real-time continuous 
quartz monitor for compliance sampling could take a decade or 
more, so it is not a near-term solution for assessing quartz 
exposure.
    Between 2016 and 2018 NIOSH conducted usability tests of 
the field based prototype rapid quartz monitor, or end of shift 
silica monitor, in four coal mines in West Virginia, including 
three underground mines and one surface mine. The mines 
conducted the testing in collaboration with NIOSH, collecting 
more than 200 area and personal dust samples. During those 
tests the method used to provide only an estimate for quartz, 
still the mines were able to use the information from the field 
test prototype rapid quartz monitor to assess the efficacy of 
the dust control technology and were able to identify 
occupations and tasks characterized by exposure to high 
concentrations of quartz.
    At this time, NIOSH is supporting MSHA evaluations of the 
prototype to determine how well the results correlate with the 
analytical results provided by the standard laboratory based 
MSHA P-7 approach. Sampling will be conducted in MSHA districts 
2 and 3 and will be expanded to include samples from each MSHA 
district across the United States.
    Although the field based prototype rapid quartz monitor, or 
end of shift silica monitor, shows promise as a self assessment 
tool for exposure to quartz in coal mines, it is not currently 
ready for use as a compliance tool.
    In the meantime, more frequent quartz sampling, as opposed 
to dust itself, but quartz sampling, and more frequent enhanced 
medical surveillance would be appropriate, including retired 
coal miners.
    Thank you, Madam Chairwoman. I would be happy to answer any 
questions.
    [The statement of Dr. Howard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairwoman ADAMS. Thank you very much.
    We will recognize assistant secretary, Mr. Zatezalo. Five 
minutes, sir.

 TESTIMONY OF DAVID ZATEZALO, ASSISTANT SECRETARY OF LABOR FOR 
          MINE SAFETY AND HEALTH, DEPARTMENT OF LABOR

    Mr. ZATEZALO. Thank you, Madam Chairwoman Adams, Ranking 
Member Byrne, members of the Subcommittee. Thank you for 
inviting me here to testify today.
    It is my honor to appear before this subcommittee and to 
represent President Trump, Secretary Acosta, and all 1,860 
dedicated men and women of the Mine Safety and Health 
Administration.
    What distinguishes MSHA from other federal safety agencies 
is our foundational mandate of inspecting every underground 
mine at least four times per year and every surface mine at 
least twice. I am pleased to report that in 2018 MSHA fulfilled 
that mandate with over 37,000 inspections.
    Our one MSHA initiative began last year by creating the 
unified position of administrator for mine safety and health 
enforcement. We evaluated all mines for distance from MSHA 
offices and identified 90 mines where it made sense to cross-
train inspectors. The Mine Safety and Health Academy 
established and revised curriculum with input from the NCFLL, 
which represents our field staff, and provided up to 56 hours 
of classroom training for those inspectors, plus 24 hours of 
on-the-job training with a seasoned inspector.
    During the six months beginning last October, inspectors 
with those 90 mines spent 41 percent less travel time than 
previously. Clearly, this saves taxpayer dollars, but 
ultimately this is about more effectively achieving MSHA's core 
mission. Instead of spending time driving, our inspectors can 
spend more time on site interacting with miners and observing 
them.
    Understand that MSHA will retain specialists in their 
current roles to cover specific mining conditions, such as 
ventilation experts for underground coal mine inspections, 
which are prone to special hazardous conditions. In keeping 
with our promise to the House of Senate Appropriations 
Committee, MSHA's office of accountability will audit crossover 
mine inspections to ensure that enforcement personnel adhere to 
MSHA's policies and procedures.
    MSHA's injury and fatality data show the most common cause 
of fatalities is powered haulage accidents, accounting for half 
of fatalities in recent years. We launched an initiative 
focusing specifically on the three most common types of haulage 
fatalities, which are mobile equipment collisions, belt 
conveyers, and seat belt use. Last June, we published a request 
for information seeking input on these technologies, practices, 
and other ways to prevent such fatalities and held seven public 
hearings along the way. In the recently released spring unified 
agenda, MSHA announced our intention to issue a propose rule 
addressing powered haulage.
    In addition to more strategically focusing on the day to 
day safety of miners, we are paying very close attention the 
``H'' in MSHA, which is miners' health. MSHA continues to 
aggressively enforce existing standards to ensure that miners 
are protected from exposure to respirable dust and quartz. I am 
encouraged by mine operators' plus 99 percent compliance with 
the 2016 respirable coal dust rule in controlling coal miners 
exposure to quartz. The number of quartz samples collected has 
increased by 335 percent between 2013 and 2018. And since 
August of 2016 MSHA samples indicate average quartz exposures 
are 75 percent below the threshold limit on average.
    This can further improve with real-time quartz monitoring, 
similar to CPDM technology, which NIOSH continues to develop, 
along with MSHA's collaboration. Whereas over 16 percent of 
quartz samples exceeded the standard in 2008, only 1.2 percent 
exceeded that standard in 2018, which is the lowest rate since 
MSHA began keeping records.
    Samples that exceed the standard are reviewed in senior 
staff meetings. Field staff issue citations per regulations and 
follow up to ensure the mine addresses the cause to avoid 
future exceedances. And to compel compliance we have not 
hesitated to issue 104(b) withdrawal orders.
    In addition, in the 2014 Respirable Coal Mine Dust Rule, 
MSHA committed to a retrospective study of the dust rule and 
last year we issued an RFI seeking comments on how best to 
structure that study.
    Due to the decades-long latency period between exposure and 
disease manifestation, a medically valid study cannot be 
completed in the near-term, but MSHA anticipates the study will 
confirm that dramatic increases in sampling and compliance 
translate into reduced black lung incidents going forward.
    In May of 2019 MSHA published an RFI in its regulatory 
agenda that includes both coal and metal, nonmetal, quartz, or 
silica standards.
    In closing, I want to inform the Subcommittee that MSHA is 
more vigorously pursuing operators who refuse to pay delinquent 
civil penalties. Shortly after I testified last February, we 
launched an enhanced Scofflaw Initiative and I am pleased to 
report that so far it has accounted for nearly $8 million that 
otherwise would not have been collected.
    Again, I appreciate the opportunity to discuss MSHA's 
important work with you. I look forward to answering any 
questions that members of the subcommittee may have.
    [The statement of Mr. Zatezalo follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairwoman ADAMS. Thank you very much.
    I will recognize Miss Brown Barnes for 5 minutes, ma'am.

   TESTIMONY OF CINDY S. BROWN BARNES, DIRECTOR, EDUCATION, 
   WORKFORCE, AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. BROWN BARNES. Chairwoman Adams, Ranking Member Byrne, 
and members of the subcommittee, thank you for inviting me to 
discuss our part in ongoing work on the Black Lung Disability 
Trust Fund solvency and the Department of Labor's, or DoL's, 
oversight of the program.
    The Black Lung benefits program helps miners who have been 
totally disabled due to black lung disease. Coal companies 
found liable or the Trust Fund pays these benefits. The Trust 
Fund may pay if, for example, a company goes bankrupt. A 
domestic coal tax is the Trust Fund's primary funding source.
    Today I will discuss, one, the future insolvency of the 
Trust Fund given the coal tax decrease and declining coal 
production, and, two, provide preliminary observations 
regarding DoL's oversight given recent coal company 
bankruptcies.
    Last year we reported that multiple factors have challenged 
the finances of the Trust Fund since it was established about 
40 years ago. Its expenses have consistently exceeded its 
revenues, interest payments have grown, and actions taken that 
were expected to improve Trust Fund finances did not completely 
address this debt. As a result the Trust Fund has borrowed from 
the Treasury almost every year since 1979. This caused debt and 
interest to accumulate.
    Trust fund revenue will further be challenged by the 55 
percent coal tax decrease that took effect this year and by 
declining coal production into the future.
    We did simulations that demonstrate that future Trust Fund 
revenue may not be sufficient to cover beneficiary payments and 
administrative costs through 2050. For example, we simulated 
that Trust Fund revenues for this year would be $187 million 
less than last year due to the coal tax decrease. As a result, 
the Trust Fund will need to continue borrowing from the 
Treasury to cover its expenses. When this occurs, the Federal 
Government is essentially borrowing from itself and from the 
general taxpayer to finance benefit payments to coal miners 
with black lung disease.
    As you can see in the figure, by 2050 our simulation shows 
that outstanding debt could exceed $15 billion. Even if the 
black lung program stopped paying all beneficiaries this year, 
the debt could still be over $6 billion by 2050 using the 
current coal tax rate. However, various options, such as 
adjusting the coal tax and forgiving interest or debt, could 
reduce future borrowing and improve the Trust Fund's financial 
position.
    Our preliminary observations indicate that Trust Fund 
finances have been further strained by coal operator 
bankruptcies. Since 2014 insolvent coal miner companies have 
cost the Trust Fund over $300 million. Federal law charges the 
DoL with ensuring that coal companies have insurance to secure 
their black lung benefit liabilities. To do so companies can 
ensure, meaning they must obtain acceptable collateral in an 
amount deemed adequate by DoL to secure their liability. As you 
can see in the table, since 2014 there have been three 
bankruptcies of large self-insured coal operators that have 
resulted in substantial losses to the Trust Fund. For example, 
the collateral DoL required from Alpha Natural Resources was 
just $12 million, although the estimated liability was about 
$207 million. As a result, an estimated 685 beneficiaries will 
be added to the Trust Fund with an estimated loss of nearly 
$185 million. There are 22 remaining coal operators that DoL 
has authorized to self-insure and many of these pose a 
financial risk to the Trust Fund.
    Our preliminary analysis indicates that DoL did not 
regularly review these operators so that they could adjust 
collateral as needed to protect the Trust Fund. For 10 of these 
companies the last review occurred between 16 and 31 years ago. 
For 11 of these companies DoL has no estimate of their black 
lung liability. For companies that DoL did have liability 
estimates for, in some cases the collateral was tens of 
millions less than their estimated liability.
    In 2015, DoL stopped monitoring these self-insured coal 
companies. Over the past 4 years, DoL has been developing new 
procedures for regulating self-insurance, but these procedures 
have not yet been put into action.
    In conclusion, the future solvency of the Trust Fund 
remains bleak and DoL's oversight challenges have left the 
Trust Fund vulnerable and exposed to additional financial risks 
from insolvent coal mine operators without adequate collateral. 
Our ongoing work will present opportunities for us to further 
examine these issues.
    Thank you. This concludes my prepared statement and I would 
be happy to entertain any questions.
    [The statement of Ms. Brown Barnes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman ADAMS. Thank you very much.
    Under Committee Rule 8, we will now question witnesses 
under the 5 minute rule.
    I now recognize myself for 5 minutes.
    Dr. Howard, in 1974 NIOSH recommended reducing the 
permissible exposure limit for silica to 50 milligrams per 
cubic meter from 100 milligrams. Is that still the position?
    Dr. HOWARD. Yes.
    Chairwoman ADAMS. So are there any credible policy 
justifications for reducing the standard at OSHA, as was done 
in 2016? What is your response to that?
    Dr. HOWARD. We stand by our recommendations that were made 
many years ago. We were very fortunate that OSHA finally 
accepted our recommendations and issued a silica rule. And we 
work closely with MSHA if they so choose to develop a silica 
rule.
    Chairwoman ADAMS. So is there excessive risk to miners at 
and below the current 100 micrograms per cubic meter threshold?
    Dr. HOWARD. We certainly believe that any exposure to 
quartz is not a healthful thing.
    Chairwoman ADAMS. So what about 50?
    Dr. HOWARD. Yes, ma'am. Yes.
    Chairwoman ADAMS. Okay.
    Mr. Secretary, what about that? Is there any good reason 
why OSHA should have one silica standard and MSHA should have 
another that is half as protective?
    Mr. ZATEZALO. Well, Madam Chairman, the laws are very 
different. While OSHA's silica standard, for those of you that 
are familiar with it, recognizes the use of personal protective 
equipment, or PPE, MSHA's specifically does not allow it for 
any terms of compliance. And additionally, the average 
micrograms per cubic meter has been at just slightly over 25 
micrograms. The standard is at 100 as it has been from the 
inception of this legislation. The biggest issue in here is the 
prohibition against counting personal protective equipment.
    Chairwoman ADAMS. So are miners--
    Mr. ZATEZALO. So OSHA--what I am trying to say is that 
OSHA's standard, while it is lower, is achieved through the use 
of PPE. MSHA's standard is not allowed to count PPE.
    Chairwoman ADAMS. Okay. So are miners somehow less 
susceptible to silica related disease than construction 
workers?
    Mr. ZATEZALO. I am sorry?
    Chairwoman ADAMS. Are miners less susceptible to silica 
related disease than construction workers?
    Mr. ZATEZALO. They are not, and that is exactly why we 
enforce that law very regularly, very rigidly. We are up 80 
percent on quartz inspections and quartz sampling in the last 
10 years. And I will tell you that every quartz sample is taken 
by MSHA, not by the industry.
    Chairwoman ADAMS. Okay. You have been quoted in the past as 
saying that PMF cases are clearly silica problems, and other 
times you said that you don't think the science of causation is 
well-defined. Which is it?
    Mr. ZATEZALO. I think PMF problems are largely contributed 
to by quartz, of which silica is a component. Silica is a 
component of quartz. What we actually measure is quartz.
    Chairwoman ADAMS. So, okay.
    Dr. Howard, do you agree with the Assistant Secretary's 
statement? What is your view?
    Dr. HOWARD. Well, I have said that in my testimony that 
quartz is the most common form of crystalline silica.
    Chairwoman ADAMS. Okay. Well, thank you very much.
    I am going to now recognize the Ranking Member for the 
purpose of questioning the witnesses.
    You are recognized, Mr. Byrne.
    Mr. BYRNE. Thank you, Madam Chairwoman.
    Secretary Zatezalo, I am glad to see you are moving forward 
with a formal request for information on respirable crystalline 
silica. As we have discussed here today, the National Institute 
of Occupational Safety and Health is working on an end of shift 
measuring device, and there is additional research under way, 
on advanced lung diseases related to mine activities. What type 
of information from the public do you hope to gain in the 
request for information?
    Mr. ZATEZALO. What I hope to gain from the public in this 
RFI is some alternative means of using PPE to achieve a lower 
compliance rate. Or, I am sorry, a lower threshold rate. The 
people who make air stream helmets have now discontinued that. 
I can tell you of mines today that are using air stream helmets 
voluntarily that in the future will not be able to. There are a 
number of different PPE providers, some of which we have been 
aware of, some of which we have not.
    So it is really the science of PPE and its current state is 
very critical to achieving a lower standard as we go forward in 
the future. As Cecil Roberts stated, not all miners can easily 
wear PPE, depending on their job. So it is important that we 
actually have some good definition around that.
    What I hope to achieve in that is the segregation of a 
quartz standard, as well as current information to enable us to 
make informed decisions. And we have released that on May 22.
    Mr. BYRNE. As we heard from Mr. Roberts earlier, there is 
real concern about the issue of tampering with dust samples. As 
MSHA is tasked with enforcing the laws and regulations 
impacting mining operations, how does MSHA currently ensure 
there is no tampering with the data collected from continuous 
personal dust monitors?
    Mr. ZATEZALO. CPTMs offer a lot of tamper-proof 
improvements. For example, if the unit sits still too long, if 
it is hung somewhere its functionality is obviated. It 
immediately voids the sample. So it is very good from that 
aspect. It can't be moved out of the way completely.
    The second thing that we do is that data is transmitted 
electronically from the unit directly to MSHA. So there is no 
interpretation, there is no interference.
    And, thirdly, one of the more important things is that 
those units give people, machine operators, and miners real-
time data on what they are actually exposed to. And this is 
critical to them being able to make adjustments in how they cut 
and how they work throughout the shift.
    Mr. BYRNE. You note in your testimony that the agency 
recently examined injury and fatality data to determine the 
most common causes of mining fatalities. Can you expand on the 
findings in this area and the ongoing initiatives MSHA has 
launched as a result?
    Mr. ZATEZALO. Certainly, sir. The most common cause of 
mining fatalities has been power haulage for the past several 
years. Power haulage is especially onerous and it is one of 
those events that whereas it is very low probability, it is 
very high consequence. These large pieces of equipment are very 
unforgiving when you collide with them or when you have an 
interaction with them.
    So we did an RFI to make sure that we knew what all the 
best technologies were out there, because our laws are very 
archaic in this regard, in that we essentially require when a 
big truck goes into reverse that it emits a beep, beep, beep 
sound and that is it. And that has not I don't think changed 
since 1974-ish. And I could be wrong on that. Maybe it was '72, 
but I think it was '74.
    There are new technologies out there today, such as 
proximity detection, such as alarms, sensors on your vehicles, 
such as cameras, that enable operators to actually see what is 
going on around them. That is the largest single cause and that 
is what we are addressing.
    Some other things that we had last year, we had a very 
severe rash of fire incidents on large pieces of equipment. 
Those incidents provoked us to go ahead and do a complete 
inspection of all trucks in the mining industry. We inspected 
over 4,000 trucks and went through all the fire suppression on 
those, worked with operators to make sure that they were up to 
speed. Several of them had been installed incorrectly. So we 
are trying to do that in a lot of ways. There is a compliance 
assistance program to make sure that people actually can 
benefit from what we are doing rather than just receive 
citations.
    Mr. BYRNE. Thank you.
    I yield back, Madam Chairwoman.
    Chairwoman ADAMS. Thank you very much.
    I will now yield to the gentleman from California, Mr. 
Takano for 5 minutes, sir.
    Mr. TAKANO. Thank you, Madam Chair, and thank you to our 
witnesses for coming to this hearing today as we work towards 
ensuring safety standards for miners.
    As we all know, progressive massive fibrosis is a 
debilitating and deadly disease. The levels of this disease 
have increased over the past 25 years and do not show signs of 
abating. This is a health epidemic and we need to act now. We 
have got convincing scientific evidence to indicate that. The 
lives of miners are at stake. We cannot wait another decade to 
address silica exposure. We already have the data and 
information available to us now.
    Assistant Secretary Zatezalo, when you were before this 
committee in 2018 you stated that you were waiting for a report 
from the National Academy of Sciences and that report was 
released a year ago. Please explain to members of this 
committee and to the miners that MSHA is charged with 
protecting why you have not updated the standards.
    Mr. ZATEZALO. We have not updated the standards, sir, 
because when I took this oath of office to come in here, I 
promised that I would obey the laws, and part of them include 
the Administrative Procedures Act, sir.
    Mr. TAKANO. What does that have to do--you said that you 
would--you would--after receiving the National Academy of 
Sciences report--that was the key thing you were waiting for.
    Mr. ZATEZALO. We--we are--we are--
    Mr. TAKANO. What is this--
    Mr. TAKANO.--working on the National Academy of Sciences 
report, along with NIOSH and we have worked tirelessly on it 
since we began. We have increased our sampling, we have lowered 
the average exposure, and we continue to do that every day. 
However, sir, I do have--
    Mr. TAKANO. Well, we will get more--
    Mr. ZATEZALO.--procedures I have to--
    Mr. TAKANO.--into what that report says. I am reclaiming my 
time, sir.
    You know, you said that you were collecting data on quartz 
and not silica. Dr. Howard, explain the difference between 
quartz and silica to me.
    Dr. HOWARD. Well, I am not a mineralogist, but silica, 
crystalline silica is the most common form of quartz we find in 
a coal mine.
    Mr. TAKANO. So saying that he was collecting silica quartz 
samples and not silica seems to me a distinction that doesn't 
make a difference.
    Dr. HOWARD. Potato, Potato.
    Mr. TAKANO. Thank you. Thank you.
    I find that testimony, you know, highly, highly deceptive 
Mr. Zatezalo.
    Mr. ZATEZALO. It is not deceptive at all, sir.
    Mr. TAKANO. You think there is a difference between quartz 
and silica?
    Mr. ZATEZALO. There is a difference between quartz and 
silica. Quartz is made up of--quartz is made up of anywhere 
from 60-98 percent silica. Quartz and silica are two different 
things.
    Mr. TAKANO. I see, I see. Okay.
    Mr. ZATEZALO. We use--we use measuring quartz--
    Mr. TAKANO. Reclaiming my time, reclaiming my time. Sir, 
let me ask my next question.
    You know, the Mine and Safety and Health Administration is 
failing miners. Inspecting underground mines only four times a 
year does not help miners. I mean you talk about how you are 
inspecting mines. Refusing to implement new technology does not 
help miners. The slow walking and delaying of updating 
standards does absolutely nothing to help miners. We are out of 
time. MSHA needs to address the standards now.
    Over a year ago the National Academy of Sciences 
recommended the use of end of shift silica monitoring 
technology, and Dr. Howard just described their development of 
affordable technology that enables mines to conduct end of 
shift monitoring of miners' silica exposure. What are your 
plans to require that this technology be used?
    Mr. ZATEZALO. Sir, that technology is not for compliance 
and it will not withstand the scrutiny of a system that has to 
be used for compliance and enforcement. It is an engineering 
tool, not a compliance tool.
    Mr. TAKANO. Okay. Well, let us switch--I want to know--
    Mr. ZATEZALO. We do not prevent anyone from using it.
    Mr. TAKANO. I want to know if you can explain with all the 
work that NIOSH, OSHA, and the National Academy of Sciences and 
MSHA have done regarding the hazards of silica over the last 40 
years why you are starting the process with a request for 
information, the RFI, the earliest baby step of the regulatory 
process, rather than going directly to a formal proposal.
    Mr. ZATEZALO. It is the process that I understand I am 
required to follow, sir.
    Mr. TAKANO. It is my understanding that you don't have to 
start with an RFI, that you could go directly to a formal 
proposal given all the information we already have.
    Mr. ZATEZALO. Given that the average exposure is already 
half of what OSHA's limit is, it would seem to me that an 
emergency standard would be uncalled for.
    Mr. TAKANO. Okay. All right. Well, I--it is a--I think that 
we have an ample amount of information already as I cited.
    Should Congress amend the Act to make a knowing violation 
of mandatory safety and health standard, which recklessly 
endangers the health of a--or safety of a miner a felony?
    Mr. ZATEZALO. I do not understand your question.
    Mr. TAKANO. Should Congress amend the Mine Act to make a 
knowing violation of a mandatory safety and health standard, 
which recklessly endangers the health or safety of a miner, a 
felony?
    Mr. ZATEZALO. As I have said to you last year, sir, that is 
Congress' discretion.
    Mr. TAKANO. Today, as you know, it is a mere misdemeanor. 
Would that deter such conduct as we saw in the Upper Big Branch 
mine where 29 miners were killed on April 5, 2010.
    Mr. ZATEZALO. Difficult for me to say that, sir.
    Mr. TAKANO. All right.
    Well, thank you very much for your testimony. I yield back.
    Chairwoman ADAMS. Thank you very much.
    The gentleman from Virginia, Mr. Cline is recognized for 5 
minutes.
    Mr. CLINE. Thank you, Madam Chair. I thank the witnesses 
for being here.
    The mining industry contributes greatly to our economy and 
to our energy security, and as we know, miners have made many 
sacrifices and it is important that we support them. Industry 
has been making changes to better protect and monitor the 
health of their miners and we should be looking for ways to 
further encourage this.
    In my home district, Washington and Lee School of Law has 
an advanced administrative litigation clinic for black lung. 
This clinic assists coal miners and survivors who are pursuing 
Federal Black Lung benefits. The clinic has represented roughly 
200 clients since being established in 1996 and has a success 
rate of five times the national average. I am glad my district 
and this committee are putting a focus on ways to better 
protect miners.
    I would first begin by asking Mr. Watzman, can you speak to 
the technologies that are being used to better monitor dust? 
Oh, I am sorry. Assistant secretary Zatezalo.
    Mr. ZATEZALO. Zatezalo.
    Mr. CLINE. I apologize.
    Mr. ZATEZALO. It is all right.
    Mr. CLINE. Can you please speak to the cross-training and 
consolidation efforts on the coal mine safety and health 
inspectors and the metal and nonmetal mine safety and health 
inspectors? As this number of active mines has decreased over 
the years, do these changes keep pace with what is needed and 
has there been any input from industry on this consolidation?
    Mr. ZATEZALO. The crossover inspections that we started 
last year, sir, were entered into as a way to allow 
inspectors--at inspectors' suggestion--allow inspectors to 
spend more time at mines and less traveling in their vehicles. 
I told you in my opening testimony that in the first 6 months 
it has now saved about 41 percent of the time.
    The question with it was really the crossover training. All 
of these people who are inspectors in the classic sense, they 
are experienced, they know what they are doing, but they need 
to brush up on the laws and differences in them. So with that 
regard, we put them through a 56 hour program. We went through 
it with the union, we did a 24-hour site on site, boots on the 
ground together transfers, and it seems to be going very 
smoothly from an inspector standpoint and from the operator 
standpoint.
    Now, we have revised our training, we have taken some 
points on board from our crossover inspectors and from our 
NCFLL union folks. We have revised that. We are very fortunate 
that we have our own Mine Safety and Health Academy, and we put 
that training on ourselves. And I think it is going fairly well 
right now. We are probably going to do a little wider swath on 
that in the future. I will point out to you that we will not 
reduce the role of specialists, and we have not crossed over 
underground hazardous mines at all. We will not jeopardize 
those. What we cross over on is primarily sand and gravel 
operations, stone pits, that sort of stuff.
    Mr. CLINE. You have gotten a pretty good--as you say, you 
have gotten a pretty good feedback on that from the inspectors?
    Mr. ZATEZALO. We have good feedback from the inspectors and 
we have--I have specifically asked a number of operators about 
it. We have had fair to medium impact. I will put it that way. 
I am actually going to speak to a group in Indiana in a few 
weeks and I am going to ask them those questions again.
    Mr. CLINE. Great. Thank you very much.
    Mr. ZATEZALO. Thank you.
    Mr. CLINE. Madam Chair, I yield back.
    Chairwoman ADAMS. Thank you very much.
    We will now yield 5 minutes to the gentlelady from 
Pennsylvania, Miss Wild.
    Ms. WILD. Thank you, Madam Chair.
    Greetings and thank you for being here on this, what I 
consider to be a very, very important issue.
    By way of background, I represent a district in 
Pennsylvania and I practiced law for 30-some years and often 
saw clients who were victimized by lack of insurance by a party 
on the other side or inadequate insurance. So this is something 
that causes me a great deal of concern.
    Ms. Barnes, you noted that many mine operators are 
underinsured for black lung liability. And we know that a group 
of mine operators recently filed for bankruptcy and were able 
to shift over $300 million of liability to the Black Lung Trust 
Fund. All of this is happening while the excise tax rate on 
coal that funds the Black Lung Trust Fund was reduced.
    In order to avoid purchasing workers' compensation 
insurance, mine operators may self-insure if they demonstrate 
to the Department of Labor that they have the necessary assets 
to cover their black lung liabilities. Am I right about that?
    Ms. BROWN BARNES. Yes, that is correct.
    Ms. WILD. What documentation does the Department of Labor 
require to confirm that mine operators have sufficient assets 
to cover such liabilities so that they can self-insure?
    Ms. BROWN BARNES. Well, this is what we have been trying to 
get a clear answer on as part of our ongoing work. And they are 
in the process now of revising those procedures, so we will 
have a better answer once we complete our assessment.
    Ms. WILD. Well, to date, what kind of documentation has 
been required by the Department in order to ensure that a mine 
operator can properly cover its liabilities in the event it 
chooses to self-insure?
    Ms. BROWN BARNES. Yeah, it is--it is varied and it has been 
rather sketchy and there has been some difficulty obtaining 
that documentation.
    Ms. WILD. Okay. Are there any kind of audits done of the 
documentation that is provided?
    Ms. BROWN BARNES. That is part of what they are trying to 
implement currently, to do some audits of that.
    Ms. WILD. Okay. Well, as I said, this is--the self-insured 
situation has caused me a great deal of concern. In the context 
of the recent bankruptcies, particularly Alpha Natural 
Resources, do you think the Department of Labor was unaware of 
the disproportionate lack of reserves before approving it to 
self-insure?
    Ms. BROWN BARNES. In terms of whether they were aware or 
unaware, one thing that we have noticed is that they have not 
been overseeing it and that has been part of the problem, 
monitoring it and looking--checking on it periodically to see 
what is going on there.
    Ms. WILD. So let me just shift to the Assistant Secretary, 
if I may, on this same area.
    Was the Department of Labor unaware of the disproportionate 
lack of reserves before approving Alpha Natural to self-insure?
    Mr. ZATEZALO. Ma'am, MSHA has no role in the Federal Black 
Lung Trust Fund. It is my understanding that is guaranteed by 
the U.S. Treasury. But MSHA actually has no role in the Federal 
Black Lung Trust Fund.
    Ms. WILD. So if we refuse to raise the excise tax rate back 
to its 2008-2018 levels, and if the Black Lung Trust Fund goes 
insolvent, the Department of Labor is going to have to borrow 
money from the U.S. Treasury. Is that right? Either one of you.
    Mr. ZATEZALO. That is the way I understand it.
    Ms. WILD. And, Ms. Barnes, is that your understanding?
    Ms. BROWN BARNES. Yes, that is correct.
    Ms. WILD. So in effect, we would be shifting the cost of 
the Black Lung Trust Fund away from the coal operators and to 
the taxpayers, right?
    Ms. BROWN BARNES. Yes.
    Ms. WILD. It is my understanding also that according to SEC 
filings, Alpha Natural Resources' CEO pocketed over $20 million 
in the 3 years leading up to their bankruptcy. And after the 
company exited bankruptcy in 2016 he was paid another $1.8 
million in compensation. Is that your understanding as well?
    Mr. ZATEZALO. I have no involvement in that, no knowledge 
of it.
    Ms. WILD. Are you aware of that, Ms. Barnes?
    Ms. BROWN BARNES. I was not.
    Ms. WILD. That is a pretty outrageous situation, wouldn't 
you say?
    Ms. BROWN BARNES. That--that is a cause for concern.
    Ms. WILD. Thank you. That is all I have.
    I yield back.
    Chairwoman ADAMS. Thank you.
    I want to now recognize the Chair of the Education and 
Labor Committee, Mr. Scott, from Virginia. Mr. Scott, you are 
recognized.
    Mr. SCOTT. Thank you.
    Mr. Zatezalo, we sent you several oversight letters about 
the situation where Affinity Mine had been put on a pattern of 
violation sanctions and even after for serious violations, 
including some that involved miners' deaths. And that sanction 
was lifted. Our concern was it didn't appear to be consistent 
with the statutory requirements that they have complete 
inspections without serious violations.
    Now, we sent you letters to kind of follow up to see what 
had happened and we got responses, and I want to thank you for 
the responses, but it didn't address the point we were trying 
to get to, and that is how Affinity Mines could have been 
relieved from sanctions.
    And so I am asking you if we can get emails, memos, leading 
up to the decision to remove Affinity Mine from the POV, 
communications with external parties leading up to the 
decision, and a list of meetings and copies of meetings or 
memos summarizing meetings between MSHA and Pocahontas Coal, 
the owner of Affinity Mines, regarding that decision.
    Would that be a problem in getting that information from 
you?
    Mr. ZATEZALO. Sir, I believe that you are aware that has 
been--that is the subject of a lawsuit between--that the UMWA 
filed on us that is currently open in the fourth--in the 
District Court in southern West Virginia.
    We have sent to you, I believe, a 52 page response and I 
think a 32--I am not completely--
    Mr. SCOTT. I appreciate the response, but--
    Mr. ZATEZALO. And further information--I will be happy to 
make available to you any information that we file with the 
Court. As such, sir, we are represented by the Department of 
Justice and we will be happy to provide you everything that we 
file with the Court.
    Mr. SCOTT. And that is what we got was just court filings 
and now copies of emails and other things that could have 
helped us understand how they got relieved of those sanctions.
    Mr. ZATEZALO. It is under litigation, sir. I am sorry that 
I can't speak to you more frankly about it.
    Mr. SCOTT. I understand. But we would like to get that 
information.
    Mr. Howard, we have heard about the difference between OSHA 
and MSHA on the silica standard. When was the silica standard 
first recommended by NIOSH?
    Dr. HOWARD. Oh, I think it was 42 or 43 years ago, sometime 
in the early '70s.
    Mr. SCOTT. And finally in 2016 OSHA adopted that standard?
    Dr. HOWARD. Yes. As the former secretary of labor said, 
better late than never.
    Mr. SCOTT. Well, is there any reason why MSHA cannot 
implement the same standard?
    Dr. HOWARD. Well, I don't speak for MSHA, sir.
    Mr. SCOTT. Well, you have recommended it to--for MSHA?
    Dr. HOWARD. Sir, I have made a recommendation to that 
effect.
    Mr. SCOTT. And you mentioned a monitor of retired mine 
workers?
    Dr. HOWARD. I did.
    Mr. SCOTT. What did you mean there?
    Dr. HOWARD. Sir, as you well know--and it is not just the 
mining industry, but in any hazardous industry where there are 
exposures that occur that could result in adverse health 
effects, often times the workers will leave the workforce and 
we lose the ability--although if we do a special study of 
retired workers--but we often lose the ability to follow up in 
these long latency diseases in which the manifestations or the 
severity of the manifestations may not occur while the 
individual is employed. And then they go and they leave and we 
lose track of following the full picture, characteristics of 
the disease.
    So I think one of the recommendations that we think is 
appropriate is to look at the medical surveillance, not just of 
the worker who is working, but rather to follow them in 
retirement, or in an abrupt type of retirement where they have 
to leave because of illness.
    Mr. SCOTT. Thank you.
    Ms. Brown Barnes, the Ranking Member had expressed concerns 
about the jurisdictional matters and whether we have 
jurisdiction over the tax, but the fact of the matter is, if 
the foreign trust fund goes broke or doesn't have sufficient 
funds, that the general fund of the U.S. government will pay 
the benefits. Is that right?
    Ms. BROWN BARNES. Yes, that is correct.
    Mr. SCOTT. And the problem is if the money is not there and 
we don't--and we stop appropriating the money, then the workers 
may be without benefits.
    Who estimates the amount that the mine owners have to put 
up as collateral?
    Ms. BROWN BARNES. The Department of Labor does that, the 
OWCP.
    Mr. SCOTT. And as your written testimony points out, 
several of those businesses are putting up way under 10 percent 
of what the expected liability is. Is that right?
    Ms. BROWN BARNES. Yes.
    Mr. SCOTT. Do you have an estimate about how much potential 
underfunding there is?
    Ms. BROWN BARNES. I don't have a complete estimate because 
the Department doesn't have an estimate. But we know from at 
least our preliminary work that it is at least tens of millions 
of dollars.
    Mr. SCOTT. Tens of?
    Ms. BROWN BARNES. Millions.
    Mr. SCOTT. Millions or billions?
    Ms. BROWN BARNES. Millions.
    Mr. SCOTT. Okay. Now, but there are a lot of businesses, 
many businesses for which you had no estimate at all for their 
potential liability. Is that right?
    Ms. BROWN BARNES. Yes.
    Mr. SCOTT. Thank you, Madam Chair.
    Chairwoman ADAMS. Thank you very much.
    Okay. We are going to hear now from Mr. Griffin of 
Virginia. You have 5 minutes, sir.
    Mr. GRIFFIN. Thank you very much; appreciate it. And as I 
indicated earlier, I am not normally on this committee and I am 
very appreciative of the committee for allowing me to 
participate.
    Let us pick up with the Fund, since that is where Chairman 
Scott ended.
    You indicated in your testimony that if we had no more 
claims, the debt would continue to rise on this, and that is 
because of old debt and interest payments. Is that correct?
    Ms. BROWN BARNES. Yes, that is correct.
    Mr. GRIFFIN. And you also said that one of the things we 
might be able to do--because a lot of the companies that were 
responsible did go bankrupt--one of the things you indicated we 
might be able to do would be to forgive interest or part of the 
debt. That might help stabilize the Fund as well. Is that 
correct?
    Ms. BROWN BARNES. Yeah. We did present options in our work 
from last year and it did have some of those considerations 
that we laid out.
    Mr. GRIFFIN. Because one of the things that my current coal 
operators tell me is that if they just had to pay for the 
responsibilities of what they had now, as opposed to paying for 
the mining companies that are no longer around, they believe 
that a reasonable number could be achieved and reached without 
a whole lot of gnashing of teeth and wailing going on. Do you 
concur in that opinion, or do you have no opinion?
    Ms. BROWN BARNES. It depends. And it depends on the 
underlying assumptions that is based on.
    Mr. GRIFFIN. Okay. And I appreciate that, but I do think it 
is something we should continue to work on.
    Assistant Secretary, we heard earlier from one of our 
miners, and he is still here, and he said something about tape 
at one point in his testimony. And I am wondering, you 
indicated that the machines measuring the dust and so forth 
were better today, but I have had miners tell me, even if they 
were not asked to by the company, because they were afraid the 
mine might go out of business, they would put tape over the 
sensors on the monitors. Does the new equipment have the 
ability to thwart those types of efforts?
    Mr. ZATEZALO. Yes, sir. The new equipment senses any kind 
of tampering, lack of movement, lower than expected dust, and 
it will void the sample and communicate that electronically to 
the end of the shift.
    Mr. GRIFFIN. So if it was lower than expected, would that 
be--how is that measured? Is that measured real-time or is over 
like every hour?
    Mr. ZATEZALO. Well, if you put--it is in real-time, it is a 
continuous monitor. It provides, you know--and I am going to 
tell you, NIOSH did a great job getting this developed and out 
there and I hope they're successful with the quartz monitor.
    But--
    Mr. GRIFFIN. All right.
    Mr. ZATEZALO.--the machine senses when somebody is trying 
to tamper with it and it will void itself if it senses that.
    Mr. GRIFFIN. All right.
    Mr. ZATEZALO. And we also sample with a parallel system, 
sir, that is a gravimetric system. Our samples are not tampered 
with by anybody, they are under the supervision of MSHA.
    Mr. GRIFFIN. All right. So we have gotten into this whole 
controversy over OSHA standards, NIOSH, and MSHA. And you 
indicated earlier that you all could not count the same way as 
OSHA does because you weren't allowed to count PPEs as being 
equipment that could be used. Why is that and how do I fix it?
    Mr. ZATEZALO. It is a nuance, sir, of the mining law. PPE 
is not allowed to count towards compliance.
    Mr. GRIFFIN. So what you are saying to me is get a bill. Am 
I correct in that?
    Mr. ZATEZALO. Yes, sir.
    Mr. GRIFFIN. All right.
    Mr. ZATEZALO. There are people that use PPE, but it does 
not count towards their compliance.
    Mr. GRIFFIN. All right. And then is there something we need 
to do to get more technology on the PPEs? Because if it is too 
cumbersome to wear in certain parts of the mine, got to be ways 
that we can make it less cumbersome with our space age 
technology.
    Mr. ZATEZALO. I think there is and that is why we are out 
for an RFI on that very subject.
    Mr. GRIFFIN. Okay. And explain that to me, what are you 
doing in the RFI on that subject?
    Mr. ZATEZALO. An RFI is just a request for information--
    Mr. GRIFFIN. Yes, sir, I know, but what are you doing on 
it? What--
    Mr. ZATEZALO.--from all the providers. We are gathering 
information from all the providers and we will see if there are 
acceptable ways we can go about this.
    Mr. GRIFFIN. Because it would seem to me we ought to be 
able to make that a much simpler process. And, as I said 
before, you know, we have got the silica problem we know about, 
we have got the coal we know about, but there is also--every 
mountain is a little different and we have got different 
substances out there. And instead of trying to chase the 
different substances, it seems to me if we give clean air to 
the miners, we are solving a lot of problems and maybe even 
reducing costs over time. Do you agree?
    Mr. ZATEZALO. I think that is correct and I think that it 
has been a wonderful thing that has been shown about CPDM is 
that when you get that information on their actual exposures 
into the hands of the operators and the people that are 
actually there running machinery and doing the work, they will 
manage that correctly. That is why we are plus 99 percent 
compliant, sir.
    So I think anytime, to the extent that people are educated 
on that and that people have the immediacy of feedback, I think 
they will manage that process very well.
    Mr. GRIFFIN. Thank you very much.
    I yield back.
    Chairwoman ADAMS. Thank you.
    I want to yield now 5 minutes to Dr. Foxx of North 
Carolina, who is Ranking Member from the committee.
    Mrs. FOXX. Thank you, Madam Chairwoman.
    I want to thank all of our witnesses for being here today.
    Assistant Secretary Zatezalo, can you explain the 
difference between the primary functions and mission of your 
agency, the Mine Safety and Health Administration, and the 
National Institute for Occupational Safety and Health? 
Additionally, how do the agencies currently collaborate? And 
how do you think they could better work together in the future 
on eliminating black lung disease?
    Mr. ZATEZALO. Yes, ma'am, thank you.
    We are two disparate agencies. The MSHA agency is primarily 
enforcement, education. Those are our primary goals. We also 
have a tech support arm that does a lot of our laboratory work.
    NIOSH, on the other hand--and Dr. Howard may wish to 
clarify this--NIOSH is sort of the R&D side. MSHA does not do 
R&D. We do not develop technologies. That is all done through 
NIOSH. And we collaborate very well together. I have been to 
NIOSH's facilities, they have been to ours, we meet frequently. 
Several of his people are here with us today. I think our 
working relationship is very good and I think we share a lot of 
commonality in goals.
    So I will ask Dr. Howard if he would care to add anything 
to that.
    Dr. HOWARD. Certainly I would echo that. I think our 
collaboration is excellent, I thank the Assistant Secretary for 
his enthusiasm to work with us. I think we work really well 
together, both on the leadership level as well as the staff 
level.
    Mrs. FOXX. Well, thank you both.
    Again, Assistant Secretary Zatezalo, the last time you 
appeared before the Committee you indicated you were working on 
visiting all of your agency's field offices, and it is good to 
hear today that you were able to accomplish this goal.
    What was your biggest takeaway from those visits?
    Mr. ZATEZALO. My biggest takeaway is what a great group of 
people that we have, what a great bunch we have at MSHA. We 
have an--you know, these lung issues are things that we very 
much care about. Almost all of MSHA's employees, inspectors and 
people in the field, they are all miners, ex-miners. They live 
this every day and they live in these communities. And I think 
we have a really great group of people. A lot of them would 
like to see more frequent communication. Several of them have 
complained to me about specific things and I have tried to 
alleviate those where we could.
    But I guess the--you know, what I was most impressed with 
was what a great group of serious people we have, how dedicated 
they are.
    Mrs. FOXX. Thank you for that.
    One more question. I am glad to hear you recognize the 
importance and benefits of compliance assistance visits, 
especially for smaller mine operators. Under your leadership, 
how are you encouraging more operators to take advantage of 
this opportunity?
    Mr. ZATEZALO. Well, what we are doing is building up our 
program in certain areas. Unfortunately, over the years mining 
tends to shift around to different parts of the country, and so 
we found ourselves with areas where there were a lot of miners 
and not enough EFSMS, or our field people on the education 
side. We are moving some people in there. We have put some more 
people in there and we will--our compliance visits and 
compliance sessions last year were up over 8 percent. We 
conduct a lot of training, especially on the CPDM. We conduct 
all the training for certification on CPDM throughout the 
industry. And we just have a lot of people that are out there 
hustling, trying to get around as much as they can. The small 
mine services group subset has been especially effective and I 
am very pleased with what we are seeing out of those groups.
    Mrs. FOXX. Thank you, and thank you all again. And thank 
you, Madam Chairwoman.
    I yield back. Or, Mr. Chairman, I yield back.
    Mr. SCOTT. Thank you. Thank you, Dr. Foxx.
    The Chair head was called to vote in the Financial Services 
Committee, and so I will close up.
    I remind our colleagues that pursuant to committee 
practice, materials for submission for the hearing must be 
submitted to the committee clerk within 14 days following the 
last day of the hearing, preferably in Microsoft Word format. 
Materials must address the subject matter of the hearing. Only 
a member of the committee or an invited witness may submit 
materials for inclusion in the hearing record.
    Documents have to be in the form--the record set form.
    So I want to thank the witnesses for your participation 
today. What we have heard today is extremely valuable. The 
members of the committee may have some additional questions for 
you and we ask the witnesses to please respond to those in 
writing. The hearing record will be held open for 14 days in 
order to receive those responses.
    I remind my colleagues that pursuant to committee practice, 
witness questions for the hearing must be submitted to the 
majority committee staff within seven days. The questions 
submitted must address the subject matter of the hearing.
    I now recognize the distinguished Ranking Member for his 
closing statement.
    Mr. BYRNE. Thank you, Mr. Chairman. I thank you for being 
an adequate substitute for Chairwoman Adams.
    Mr. SCOTT. Thank you.
    Mr. BYRNE. And I want to thank everybody on this panel and 
the prior panel. I think we have had an excellent day 
discussing these very, very important issues and the 
information that you and the previous panel have supplied to us 
will be very valuable as the committee makes its decisions 
about what, if any, actions we need to take.
    But what I would really like to do is address the miners 
that are here today and perhaps miners that are looking at us 
from other places.
    Mining is a very important part of the American economy, 
but mining doesn't happen without the people that do it. And 
miners are important people because you help drive the American 
economy. Now, it is a dangerous thing to mine. We know that. 
And what we have been talking about today are things that 
perhaps we can do, all of us working together, to make things 
safer and healthier for our miners who are so important to our 
economy and to our country.
    I think everybody up here, regardless of party designation, 
cares deeply for what we can do to make sure that we can make 
people safe and keep them safe and healthy. That is in 
everybody's interest.
    I am also worried about preserving jobs in mining. We have 
had a real downturn in jobs in mining. In the previous 
Administration we almost had a war in a certain area of mining, 
in coal mining. And we need to be all about trying to preserve 
jobs, not kill jobs.
    So I hope that we will be concerned about that too, and 
understand just how valuable mining is and has been to America 
for generations.
    So I take our responsibility very seriously, our 
responsibility to you and to future generations of miners. You 
will continue to do what you do so very well, and that is a big 
part of what makes America great.
    So thank you for what you do. We are going to continue to 
look out for you and those that follow you, because you are the 
most important part of mining.
    And with that, Mr. Chairman, I yield back.
    Mr. SCOTT. Thank you. And I want to thank the witnesses for 
providing us with their valuable expertise. I want to thank the 
members of the subcommittee for your participation. And I note 
the presence and interest of my colleague from Virginia, Mr. 
Griffith. Thank you for being with us today.
    I think I can speak for all of them and say we have learned 
an enormous amount of valuable information from the witnesses 
today. We have heard compelling evidence that the most serious 
forms of black lung disease are again on the rise. We know what 
can be done about it and we know that MSHA should be doing more 
to save the lives of our Nation's miners from this terrible, 
preventable disease.
    We have also heard strong evidence about the growing 
indebtedness of the Black Lung Disability Trust Fund and the 
Labor Department's failure to oversee the self-insurance 
program, shifting more and more of the liability for black lung 
disease from the companies that cause the problem to the 
taxpayers.
    I think we can all agree that the work performed by our 
Nation's courageous coal miners should not be cursed by the 
scourge of this dreaded occupational disease that we know can 
be prevented. They deserve safe working conditions and a long, 
healthy retirement.
    I finally ask unanimous consent to insert into the record a 
letter from the United Mine Workers of America and the United 
Steel Workers of America to the Assistant Secretary of Labor, 
and correspondence to and from the Assistant Secretary in 
request to information about the Pocahontas Coal Company 
Affinity Mine being relieved of its sanction under the--
relieved of their sanctions. We will pursue that, Mr. Zatezalo, 
and to get better answers than we have gotten. If there is no 
further business, without objection, the committee stands 
adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mine Safety and Health Administration: https://
www.govinfo.gov/content/pkg/CPRT-116HPRT40937/pdf/CPRT-
116HPRT40937.pdf
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    If there is no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
